                                                     TABLE OF CONTENTS


                                                                                                                                        Page

ACRONYMS/ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . viii

AUDIT OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . xi

SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . xi

METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . xii


CHAPTER I                     Many Employers Are Not Responding to Wage Requests in
                              the UI Benefit Crossmatch Resulting in Millions of Dollars of
                              Undetected UI Overpayments

                      A.      Our Survey Shows that 42 Percent of the SESAs Across the Country
                              Had a 25 Percent or Higher Non-Response Rate to Employer Wage
                              Requests . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                      B.      We Estimate that an Additional $17 Million of UI Overpayments Could
                              Have Been Detected for Our Audit Period . . . . . . . . . . . . . . . . . . . . . . . . . 5

                      C.      Many Employers, Including Major Corporations, Failed to Respond to
                              Wage Requests . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                      D.      Employers and Major Service Providers Furnished Some Insight as to
                              Why Wage Requests Were Not Returned . . . . . . . . . . . . . . . . . . . . . . . . 14

                      E.      Crossmatch Audit Resources Should be Focused on Those Claims
                              with the Highest Probability of Overpayments . . . . . . . . . . . . . . . . . . . . . 17




                                                                        i
CHAPTER II         Potential Impact of the Personal Responsibility and Work
                    Opportunity Reconciliation Act of 1996 (PRWORA) on UI
                    Overpayment Detections, Preventions and Recoveries

              A.     PRWORA Requires New Hire Reporting That Can Assist
                     in Overpayment Detections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

              B.     New Hire Detection Has the Potential to be a More Effective
                     Detection Method than the UI Benefit/Wage Crossmatch. . . . . . . . . . . . . 23

              C.     New Hire Detections in the States Audited Are at Different
                     Stages . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

              D.     Provisions in PRWORA Legislation Present Obstacles to Using New
                     Hire Reports for UI Overpayment Detection . . . . . . . . . . . . . . . . . . . . . . 26

CHAPTER III        Recommendations

              A.     Recommendations to Improve Crossmatch Overpayment Detection . . . . . 29

              B.     Recommendations to Enhance the New Hire Detection Programs
                     Under PRWORA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

              C.     Agency Response and Audit Conclusions . . . . . . . . . . . . . . . . . . . . . . . . 32

EXHIBITS

              A.     Results of Survey Questionnaire Sent to SESAs . . . . . . . . . . . . . . . . . . . . 34

              B.1 Estimated Dollar Value of Non-Responses for BARTS States
                  and California . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

              B.2 Estimated Dollar Value of Non-Responses for IL, NJ and KY . . . . . . . . . 36

              C.1 Number of Wage Requests Sent to Employers . . . . . . . . . . . . . . . . . . . . . 44

              C.2 Number of Claims Selected for Audit by States . . . . . . . . . . . . . . . . . . . . 45

              C.3 Unique Employers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46




                                                              ii
             C.4 Wage Requests Sent to Employers in Three BARTS States, Number
                 and Percentage, Returned and Not Returned . . . . . . . . . . . . . . . . . . . . . . 47

             C.4a Wage Requests Sent to Employers in California, Number and
                  Percentage, Returned and Not Returned . . . . . . . . . . . . . . . . . . . . . . . . . 48

             C.5 Employers by Industries Who Were Sent Multiple Wage
                 Requests and Returned None: California, Illinois, New Jersey,
                 Kentucky and Texas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

             D.     Summary Results of the Employer Questionnaires . . . . . . . . . . . . . . . . . . 53

APPENDICES

             1      Status of New Hire Detection in the States Audited . . . . . . . . . . . . . . . . . 59

             2      Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67




                                                         iii
                          ACRONYMS/ABBREVIATIONS


BARTS    Benefit Audit Reporting and Tracking System

BPC      Benefit Payment Control

CEDD     California Employment Development Department

DOL      U.S. Department of Labor

ETA      Employment and Training Administration

FY       Fiscal Year

HHS      U.S. Department of Health and Human Services

IDES     Illinois Department of Employment Security

PRWORA   Personal Responsibility and Work Opportunity Reconciliation Act of 1996

SESA     State Employment Security Agency

UI       Unemployment Insurance

UIS      Unemployment Insurance Service




                                          iv
                                      EXECUTIVE SUMMARY

The Unemployment Insurance (UI) program is a Federal-State partnership designed to provide
temporary income support for persons who lose their jobs. The program is administered at the Federal
level by the Department of Labor (DOL) through its Employment and Training Administration (ETA),
Unemployment Insurance Service (UIS), and at the local level through State Employment Security
Agencies (SESAs). To operate the program, states are required to include provisions in their laws for
such methods of administration which are, within reason, to:

        1) prevent errors and/or abuse by claimants, employers and others;
        2) detect benefits paid through error by the agency, the claimant, or others; and
        3) recover benefit overpayments.

The first stage in overpayment recovery is detection, and historically, the most effective overpayment
detection tool used by the states has been the benefit/wage crossmatch. However, our audit of the
benefit/wage crossmatch activities in seven statesSIllinois, Texas, California, New Jersey, Maryland,
Kentucky and FloridaSshowed there are inherent weaknesses in this overpayment detection method.
Principal among these weaknesses is the failure of employers to respond to the states’ requests for
detailed wage information, particularly on the part of several major service providers. As a
consequence, millions of dollars in UI overpayments that could otherwise be detected are being missed.

Our audit further showed that, although the crossmatch has been the most effective detection method to
date, a potentially more efficient and effective UI overpayment detection and prevention tool may be
available through use of reports required by the recently enacted Personal Responsibility and Work
Opportunity Reconciliation Act of 1996 (PRWORA). This new law requires employers to report new
hires within 20 days after their hiring date. This represents critically useful information to the states in
their efforts to identify individuals who are working and at the same time receiving unauthorized UI
benefits. The crossmatch detection process and the new hire detection process were the focus of our
audit.

Audit Results

!       Forty-two percent of the SESAs had a 25 percent or higher non-response rate to employer
        wage requests.

!       An estimated $17 million of overpayments were not detected in four of the seven states we
        audited because wage requests were not returned by employers.

!       Many employers, including major corporations, failed to respond to wage requests.
        Additionally, employers whose wage requests were sent to service providers had a significantly
        higher non-response rate.

                                                     v
!   Employers and their service providers cited several reasons why wage requests were not
    returned, including lack of understanding of the purpose of the wage request and confusion
    regarding who should respond, especially in the case of employers that used service providers.

!   The new hire detection method has the potential to be a more timely, effective and efficient
    detection method than the UI benefit/wage crossmatch in detecting UI overpayments.

Recommendations

!   To improve the UI benefit/wage crossmatch overpayment detection system, the Assistant
    Secretary for Employment and Training should provide policy and direction to the SESAs to
    ensure that:

    C       Employers and their service providers are reminded of their responsibility to respond to
            wage requests and the corresponding benefits.

    C       States follow up with employers who routinely fail to respond to wage requests.

    C       States select for crossmatch audit and focus followup efforts on those claims with the
            highest potential for overpayments.

    C       States keep a data base of employers who are sent wage requests and maintain a
            tracking system of wage requests returned and not returned.

    C       States periodically analyze the results of their followup efforts to get employers to
            respond to wage requests, and consider imposing a penalty on employers who do not
            respond to wage requests.

!   To help the states carry out effective new hire detection programs, the Assistant Secretary for
    Employment and Training should take a leadership role in assuring that SESAs obtain timely
    access to the new hire information required by the PRWORA, and fully incorporate the use of
    this data in their UI Benefit Payment Control (BPC) operations. Important features of an
    effective new hire overpayment detection program would include:

    C       timely SESA access to the State and National Directories of New Hires;

    C       systems for matching new hire information against UI benefit records to identify
            probable overpayment cases needing further audit;

    C       data collection systems for compiling results of the new hire detection method, and for
            assessing the effectiveness of this detection method; and



                                               vi
C   quarterly reporting of new hire detection results to ETA/UIS.




                                      vii
Agency Response and Audit Conclusions

The Unemployment Insurance Service responded that the “problems [cited in our report] appear to be
widespread in the UI system,” and the Agency is “in general agreement with the findings and
recommendations.” UIS acknowledged “the need to improve the administration of the wage/benefit
crossmatch process through obtaining a higher response rate from employers to SESA requests for
weekly wage data,” and concurred with our conclusions and assessments of the potential benefits of the
New Hire reporting system.

However, despite UIS’ positive response to our report findings, the Agency said nothing about initiating
a corrective action plan. UIS stated only that it would “distribute copies of the final report to the
SESAs and urge them to take appropriate actions.” We believe much more UIS involvement is needed
to improve BPC operations. As our report clearly points out, the problems we described cannot be
solved by relying on the SESAs alone to correct the problems. UIS must be proactive and provide the
policy, leadership, coordination of resources, and regulatory assistance necessary to make the
improvements in the UI system addressed by our audit recommendations.




                                                  viii
BACKGROUND

Authority for activities to prevent, detect and recover UI benefit overpayments comes from the Social
Security Act and Internal Revenue Code. The Secretary of Labor has interpreted these laws as
requiring states to have legislative provisions for such methods of administration that are, within reason,
calculated to:

        1) prevent errors and/or abuse by claimants, employers and others;
        2) detect benefits paid through error by the agency, the claimant, or others; and
        3) recover benefits overpaid.

In spite of this recognized need to protect the UI Trust Fund’s integrity, “Since fiscal year (FY) 1995,
the UI appropriation has remained static, ignoring the increased costs of inflation and workload growth
associated with increases in the number of subject employers and growth in the civilian labor force. . . .
Consequently, activities that are needed to preserve the integrity of the Trust Fund are curtailed. These
include prevention, detection, and collection of benefit overpayments, as well as tax audits and
collections of delinquencies. The reduction of these activities costs the Trust Fund $240 million per
year.” 1

Our audit work was undertaken to improve the efficiency of the states’ BPC activities.

BPC Activities

Nationwide, for 6 fiscal years ending with FY 1995, UI paid about $27 billion annually in benefits to
unemployed workers. To assist states in preventing, detecting and recovering UI overpayments, ETA
annually allocates about $100 million to the states to maintain BPC programs.

Historically, the states’ most effective overpayment detection tool has been the benefit/wage
crossmatch. For example, in FY 1995 about 70 percent (approximately $169 million) of detected
fraudulent claims were identified by the benefit/wage crossmatch process. In that fiscal year, about
$546 million in overpayments were identified nationwide.

Although the crossmatch process has been effective, an even more effective UI overpayment detection
and prevention tool may be available by using reports required by the PRWORA, which requires
employers to report newly hired employees within 20 days after hiring them. The crossmatch detection
process and the new hire detection process were the focus of our audit work.




        1
       Grace A. Kilbane, Director UIS, Statement before Subcommittee on Human Resources,
Committee on Ways and Means, United States House of Representative on June 23, 1998.

                                                     ix
The Crossmatch Detection Process

The UI benefits/wage crossmatch has been the most effective and widely used method the states have
had to detect UI overpayments. A critical step in this method is obtaining detailed wage information
from claimants’ employers by mailing wage requests to them.

The crossmatch process compares weekly UI benefit payment records of claimants with records of
wage payments reported quarterly to the states by employers. When this process identifies claimants
with UI benefits and wages for the same quarterly period, a universe of potential UI overpayment
cases is developed. Criteria, such as a probability index, are applied to this universe to select for audit
followup those claims with the highest likelihood of containing an overpayment. Another smaller sample
is selected randomly by many SESAs.

For the selected claims, wage requests are mailed to employers to obtain the weekly wage data needed
for the BPC unit to determine whether an overpayment has occurred in making weekly benefits
payments. An overpayment determination indicates a claimant was not entitled to some or all of the UI
benefits received.

The more widely used wage/benefit crossmatch systems are the Model Crossmatch System and the
Benefit Audit Reporting and Tracking System (BARTS). SESAs can also design their own system.

Model Crossmatch System

The Model Crossmatch System involves a computer search of agency benefit payment records and
wage records reported by employers. The purpose of this crossmatch is to identify and select
claimants who received one or more benefit payments for a week(s) in the crossmatch calendar quarter
and who, according to the employers’ wage report(s), earned wages of one dollar or more during the
specified calendar quarter. A probability index score is computed and assigned to each of the selected
claimants to indicate the likelihood of finding an overpayment in their claims. The computer ranks
claimants by their probability index scores and selects a previously specified number of cases from the
top of the list.

BARTS

Like the model crossmatch system, BARTS (available through a vendor) uses a probability index score
to select a sample of cases for audit. However, BARTS also is a sophisticated BPC management
system that is capable of tracking data for other methods of detection the SESA may use (for example,
claims investigations) as well as the crossmatch detection process. The major advantage BARTS has
over the Model Crossmatch System is its ability to keep track of more audits and for a longer period.
SESAs that use BARTS especially like three features:




                                                     xi
        !       BARTS allows BPC staff to audit 52 weeks, compared with 26 weeks using the
                Model Crossmatch System.

        !       Management reports track the status of audits.

        !       Case management tools allow BPC staff to contact an employer only once. The Model
                Crossmatch System prompts staff to contact the same employer for the same claimant
                information in subsequent runs.

Service Providers

Regardless of which wage/benefit crossmatch system is being used by a SESA, a large number of
employers have crossmatch wage requests sent to service providers. Service providers are under
contract to employers for personnel and payroll services. These services include providing assistance
to employers by reviewing UI claims notifications and filing protests if the service provider believes the
claim is improper. Such services often do not include responding to wage requests.

The New Hire Detection Process

The PRWORA requires employers to report new hires within 20 days of the date employed. A
primary purpose of this reporting requirement is to identify employed parents delinquent in child support
payments. However, the law also allows access to the data for other purposes including UI
overpayment detection. (See Chapter II.)

As compared to the crossmatch process, the new hire data may provide more timely and efficient
detection of benefit overpayments. The crossmatch process is inherently limited by the time delay in
obtaining quarterly wage history data from employers, and by the time needed to gather detailed
weekly wage information. Because new hire information should be available within 20 days of the
employee hire date, UI overpayments may be detected sooner and more efficiently than is currently
possible with the crossmatch, if BPC units have timely access to the new hire information.




                                                    xii
AUDIT OBJECTIVES

The major objectives of our audit were to determine:

        !       Which employers are not responding to wage requests.

        !       Why employers are not responding to wage requests.

        !       What will encourage employers to respond to wage requests.

        !       What the dollar impact is in terms of overpayments not being detected because wage
                requests were not being returned.

        !       What impact PRWORA will have on states’ BPC activities.

SCOPE

One of the first steps of our audit was to conduct a survey of states which disclosed that many SESAs
have experienced problems with a high non-response rate to employer wage requests. We made a
more detailed review of records at the Illinois SESA to learn more about this problem. As a result of
our analysis, we decided to expand our work to encompass several more states.

In addition to Illinois, we judgmentally selected New Jersey, Kentucky, Texas, Maryland, Florida, and
California, for audit. Our selection was based on the percentage of claims for which wage requests
were not responded to by employers in these 7 states: between 25 percent and 45 percent. We also
considered crossmatch systems being used and new hire detection system status in making our
judgmental selections. Illinois, New Jersey, and Kentucky, were using BARTS, Florida was using the
Benefit Overpayment Security System, and Texas, Maryland, and California, were using modified
Model Crossmatch Systems. In addition, Florida, Texas, and Maryland, were identified as states
having new hire detection systems in place.2 We examined data on the intrastate UI benefit/wage
crossmatches of the seven states for the four most recently completed quarters at the time of our audit.
These quarters varied from state to state as shown in the following graph. Our fieldwork was
performed from October 1996 through September 1998.




        2
          Our field visit to Maryland found no new hire detection system in place. See table in Chapter
II, Section C.

                                                   xiii
                                               Audit Periods
       State            3/94 4/94 1/95 2/95 3/95 4/95 1/96 2/96 3/96 4/96 1/97 2/97 3/97

       Illinois
       New Jersey
       Kentucky
       Texas
       Maryland
       Florida
       California


We based our analysis and findings on the crossmatch data provided by the states, on interviews with
state personnel, and on information obtained from employers and service providers. The data was not
subjected to detailed audit tests.

We also examined the potential benefits of using new hire information required by the PRWORA to
detect, prevent and recover UI benefit overpayments.

METHODOLOGY

To better define the broad problem that significant amounts of UI benefit overpayments are not
detected, we initiated our work with a detailed examination of the crossmatch system and process in
the State of Illinois. Our examination revealed that the BPC unit often could not determine whether an
overpayment of benefits had occurred for claims selected for audit. Further, we learned that a principal
reason these determinations could not be made was because employers were not providing weekly
wage information when requested.

We prepared a questionnaire which we mailed to a small sample of Illinois’ non-responding employers
to learn why they were not responding to wage requests. We also sent a survey questionnaire to the
nation’s 53 SESAs. Their responses to the questionnaire confirmed that the problem with non-
responding employers was common among the SESAs. Therefore, we developed our audit
procedures to determine who was not responding to wage requests, and we developed a methodology
to estimate the dollar value of overpayments that were not detected because employers did not
respond.

For the State BPC programs audited, including our initial work in Illinois, we:

        !           Obtained an overview of the UI benefit/wage crossmatch process to gain a general
                    understanding of the crossmatch process.




                                                     xiv
       !       Interviewed officials and analyzed data from the crossmatch tracking system and related
               systems to determine which employers were not responding to wage requests, why they
               were not responding, and what could be done to encourage employers to respond.

       !       Established a profile of employer characteristics to evaluate whether a trend of common
               characteristics might be found among either employers who did respond to wage
               requests or those employers who did not respond.

       !       Identified three major service providers and used their postal ZIP codes to identify
               wage requests sent to them because the BPC information systems did not separately
               identify wage requests sent directly to employers or to employers’ service providers.

       !       Estimated, for the four states with sufficient data, a dollar value of UI overpayments that
               were not identified because wage requests were not returned to the states.

       !       Interviewed appropriate staff to determine plans to carry out or revise new hire
               overpayment detection procedures as a result of the new hire information required by
               PRWORA to be kept by the states. We also assessed the potential impact these
               procedures could have on BPC effectiveness in UI overpayment detection, and how
               the UI benefit/wage crossmatch and other detection methods will be used in the future.

This audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.




                                                   xv
                                              CHAPTER I

                 Many Employers Are Not Responding to Wage Requests in the
                   UI Benefit Crossmatch Resulting in Millions of Dollars of
                                Undetected UI Overpayments

A.      Our Survey Shows that 42 Percent of the SESAs Across the Country Had a
        25 Percent or Higher Non-Response Rate to Employer Wage Requests

Based on the SESAs’ replies to our survey questionnaire, we found many states across the country had
serious problems obtaining responses to wage requests. States in every region of the country reported
problems obtaining responses from employers. For example, 22 states had no wage requests returned
for 25 percent or more of the claims selected for audit. In four of these states the non-response rate
ranged between 40 and 47 percent. (See Exhibit A.)

To learn about state wage request followup practices with employers not responding, our survey
questionnaires to the 53 SESAs asked them to describe their crossmatch systems and processes. Fifty
of the Nation’s 53 SESAs responded and described their crossmatch systems, 2 reported that they did
not do a crossmatch audit, and 1 SESA failed to respond. Our analysis of these responses showed
that:

        !       Only one state has a formal outreach program to contact employers by phone, through
                onsite visits, or through correspondence when the employer repeatedly fails to respond
                to wage requests.

        !       Only half of the states (25) send second wage requests to all employers who failed to
                respond to the initial wage requests. Five of these states send additional followup wage
                requests if they receive no response.

        !       Eight other states send second wage requests on a limited basis, usually for claims
                where the claimant had more than one employer, at least one of the employers
                responded, and there was a high probability that an overpayment would be established.

        !       Seventeen states send no second wage requests to employers.

Our further analysis of the information supplied in the states’ replies to our questionnaire revealed that
22 states had some contact with employers and performed some type of analysis to determine why
employers failed to answer the wage requests. Although the states were not able to identify a particular
employer profile for non-responding employers, they provided a number of reasons why many
employers do not respond, such as:



                                                    1
                C   Employers used a service provider (employer representatives have a much higher
                    non-response rate).
                C   The service providers are not paid to respond to wage requests.
                C   Employers (especially those at the maximum UI tax rate) did not see the value of
                    responding to the wage requests.
                C   The employer determined that the employee did not work during the time in
                    question so the employer felt there was no need to respond.
                C   The wage request form is too confusing.
                C   The employer’s pay periods do not match the benefit weeks.
                C   Some employers would prefer to respond using an electronic data interchange.
                C   The wage request was sent to the wrong address.
                C   Separating employers, out-of-business employers, and large employers tend to
                    have a higher non-response rate.

The following information describes the wage request followup activities for the states included in our
audit.

California’s Followup Efforts

Only California has a formal and comprehensive followup program aimed at obtaining employer
responses to wage requests. California maintains and reviews quarterly a data base of employers who
are sent wage requests. Using this data base, the State attempts to follow up with all employers who
fail to respond. The State began this Employer Outreach Program in August 1995 when it mailed a
notice with the first quarter 1995 wage requests stating that it would contact employers who did not
respond to wage requests. To make this followup process more manageable, California selects
employer groups meeting certain criteria for each specific outreach effort. For FYs 1996 and 1997,
nine separate outreach efforts included employers who:

        !       had their wage requests sent to their agent/payroll service;

        !       received more than 100 wage requests in a quarter;

        !       received more than 25 wage requests and did not comply for three consecutive
                quarters; or

        !       received fewer than 25 wage requests and did not comply for at least two quarters.

California targeted its outreach program in FY 1996 to the worst employers--those that did not
respond to any of the wage requests. Before the outreach effort began, there were 86,154 wage
requests outstanding. As a result of the program, the State was successful in obtaining 38,604
responses, thus reducing the outstanding wage requests for FY 1996 by 45 percent. This effort netted


                                                    2
3,088 additional overpayment cases totaling $1,398,894 in overpayments and $419,660 in
administrative penalties for a grand total of $1,818,554. The overpayment results (average
overpayment and percent of overpayments) of the wage requests sent to service providers were
identical to the overpayment results of the wage requests sent to all employers.

California’s followup efforts have increased the rate of wage requests returned by both employers and
by their service providers. These results show that the State’s outreach efforts have been successful.

Maryland’s Followup Efforts

Maryland sends out second wage requests to all employers who do not respond to the first wage
request. Also, if wages from another employer (claimant with wages from multiple employers) generate
a case for investigation, another request is sent to an employer who did not respond. In general, an
auditor does not follow up further after two requests have been sent. For the quarters included in our
audit, fourth quarter 1996 through third quarter 1997, only 2,500 claims were selected for audit.

New Jersey’s Followup Efforts

New Jersey indicated that staffing limitations prevented the State from following up on all wage requests
not returned. Second wage requests sent out are limited to claims selected for audit which had wage
requests sent to multiple employers when (a) there is more than one non-responding employer, (b)
there is at least one responding employer, and (c) some benefit/wage conflict has already been
identified.

Illinois’ Followup Efforts

Illinois sends second wage requests only for claims selected for audit which had wage requests sent to
multiple employers with at least one responding employer, and with some benefit/wage conflict having
already been identified. Investigative staff are instructed to follow up by letter and/or telephone with all
such employers who failed to respond to the initial request.

Florida’s Followup Efforts

Florida does not follow up with employers who fail to return wage requests for claims selected for
audit. Florida officials stated that although the capability exists to perform a followup mailing, resources
must be devoted to screening and investigating the wage requests that are returned in order to be
accurate and timely in determining overpayments. They assume that if the audit wage request is not
returned, it is because the employer determined wages were not paid in the benefit week(s) in question.




                                                      3
Texas’ Followup Efforts

Texas does not follow up on employers who fail to respond to wage requests. SESA personnel stated
that the number of claims selected for audit takes into consideration the number of wage requests that
will not be returned so the BPC investigative staff will have a sufficient workload. The wage request
form being used at the time of our visit instructs the employer not to complete the form if any of four
circumstances apply since these circumstances mean there would be no conflict between wages paid
and benefits received.

Kentucky’s Followup Efforts

Kentucky sends no followup wage requests except in rare instances. The State occasionally does
some onsite followup visits to employers to inquire about why employers are not returning large
numbers of wage requests.

Conclusions

Except for California, we found that most of the states performed the crossmatch in a routine manner,
paying little attention to employers who repeatedly failed to respond to the wage requests. A common
reason given was that the BPC unit had its hands full investigating the employer wage requests that were
returned, and did not have the resources to handle an increased workload.

This reasoning does not address the need to make the best use of limited resources. By examining only
the wage requests from employers who return them, and not following up on the employers who do not
respond, many high probability overpayments are going undetected. Since many employers do not
return any wage requests, there is an equal likelihood the unreturned wage requests will include low,
medium and high probability overpayment cases. By ignoring or paying only casual attention to the
unreturned wage requests, the states are missing a major opportunity to identify additional claims that
have a high potential to result in overpayments.

Also of critical importance is the likelihood that the non-response rate will continue to increase as more
employers become aware that if they do not return wage requests, no action is taken. There are
millions of dollars of overpayments being missed because employers are not responding to wage
requests.




                                                     4
B.       We Estimate that an Additional $17 Million of UI Overpayments Could Have Been
         Detected for Our Audit Period

In four of the seven states in our audit, we estimate $17 million in UI overpayments were undetected
because employers did not respond to wage requests: $8.8 million for Illinois, New Jersey, and
Kentucky; and an additional $8.2 million for California. Sufficient information was not available to
make an estimate in the other three states, Florida, Texas, and Maryland.

An Estimated $8.8 Million of UI Overpayments Were Undetected for the Three BARTS
States

Quarterly, the BARTS states (Illinois, New Jersey, and Kentucky) perform an intrastate crossmatch by
matching state wage records with UI benefit payment records. Each match, or “hit,” is a claim that has
UI benefits paid and wages earned in the same quarter. Using criteria tailored by the states, certain hits
are screened out and eliminated from audit consideration. A Fraudx score is assigned to each of the
remaining hits. Fraudx scores (an overpayment probability scoring index) range from 1, the least
probable overpayment, to 99, the most probable overpayment.

The states then mail wage requests for claims selected for audit (using Fraudx scores and other factors)
to the employers who reported the wages. For their four most recently completed quarters, the three
BARTS states in our audit selected a total of 124,964 claims for audit, and mailed wage requests for
these claims. Responses were returned for 90,074 of the 124,964 selected claims. As a result, these
three states made 23,935 overpayment determinations totaling $20,476,808, an average of $856 per
overpayment determination. (See Figure B.1)


                            UI Overpayments Detected by BARTS States

                  Claims                       Number of                                 Average
                 Selected                     Overpayment          Total Dollar        Overpayment
                    for         Claims        Determinations        Value of           Determination
      State        Audit        Audited        by the State       Overpayments        From Responses

      Illinois    17,747        11,206             4,185            $6,659,413             $1,591
  New Jersey      49,305        37,231            11,242           $11,300,006             $1,005

     Kentucky     57,912        41,637             8,508            $2,517,389               $296
      Total      124,964        90,074            23,935           $20,476,808               $856
 Figure B.1




                                                    5
We used this information to develop a methodology to estimate the overpayment dollar value of claims
for which wage requests were not responded to by the employers. Using the percentage of
overpayments identified in the returned wage requests as a base, we estimated the probable
overpayments in the unreturned wage requests. For the BARTS states, we calculated an average
overpayment for, and applied this methodology to, each Fraudx score.3 (See Exhibits B.1. and B.2.)

The importance of this information is that for the first time it provides an approach for reasonably
measuring the dollar impact of the persistent problem of employers failing to return wage requests.
Figure B.2 shows the estimated number of non-responses to wage requests that would result in
overpayments, and the dollar value of those overpayments for the three BARTS states. We believe
that our estimate of $8.8 million for three BARTS states provides a level of significance that warrants
attention.


                          Estimated Value of Non-Responses in BARTS States

                                                 Estimated Number of
                                                 Overpayments From         Estimated Value of
                State        Non-Responses         Non-Responses            Non-Responses

               Illinois           6,541                 2,404                  $4,116,964
            New Jersey           12,074                 3,435                  $3,655,289

             Kentucky            16,275                 3,262                  $1,058,948
                Total            34,890                 9,101                  $8,831,201
            Figure B.2




        3
         For example, assume 50 claims received a Fraudx score of 70, employers returned wage
requests for 30 of the claims, and the state made 12 overpayment determinations with an average
overpayment of $1,200. We calculated the overpayment rate to be 40 percent (12 ÷ 30 = 40%). We
then applied this percentage to the non-responses (50 - 30 = 20) to find the potential number of non-
response overpayments (40% x 20 = 8) and multiplied that by the average overpayment to estimate the
dollar value of the undetected overpayments (8 x $1,200 = $9,600). We applied this methodology to
each Fraudx score, 1 through 99 (see Fraudx discussion on page 18), and added together the
estimated undetected overpayments to arrive at the estimated value of non-responses for each state.
We rounded our figures for claims with estimated overpayments down to the nearest whole number.

                                                    6
An Estimated $8.2 Million of UI Overpayments Were Undetected for California

The non-BARTS states in our audit also do a quarterly intrastate crossmatch. However, California was
the only non-BARTS state for which we had data sufficient to allow us to estimate the undetected
overpayments. From the hits, California screens out claims based on certain criteria and sends wage
requests to the employers of the remaining claimants. For the four most recently completed quarters,
California selected a total of 1,010,240 claims for audit and mailed wage requests for these claims to
the appropriate employers. The employers returned wage requests for 846,560 of the selected claims.
As a result, California made 82,525 overpayment determinations totaling $42,299,559, an average of
$513 per overpayment determination. (See Figure B.3.)

                             UI Overpayments Detected by California

                                                                                       Average
                                                Number of                            Overpayment
                  Claims                       Overpayment         Total Dollar      Determination
     State       Selected        Claims        Determinations       Value of        From Responses
                 for Audit       Audited        by the State      Overpayments

  California     1,010,240      846,560           82,525           $42,299,559           $513
Figure B.3




As in the BARTS states, we used this information to develop a methodology to estimate the dollar value
of wage requests not responded to by the employers. (See Figure B.4.) We computed our estimate of
undetected UI overpayments “in total” because California does not assign a probability index score to
each claim selected for audit. We estimated the number of claims that had undetected overpayments,
and we calculated the average value of each claim for which an overpayment determination was made.
We estimate the total dollar value of the non-responses to be $8,171,3374 (See Figure B.4 and
Exhibit B.1)




         4
         9.74 percent (82,525 ÷ 846,560) of the responses were overpayments, and we estimated that
15,942 of the non-responses were overpayments (9.74% x 163,680). We multiplied the 15,942 by
the average overpayment, $512.57, to estimate the dollar value of the undetected overpayments
(15,942 x $512.57 = $8,171,337).

                                                  7
                         Estimated Value of Non-Responses in California

                                               Estimated Number of
                                               Overpayments From          Estimated Value
               State       Non-Responses         Non-Responses           of Non-Responses

            California         163,680                  15,942               $8,171,337
            Figure B.4




Therefore, we estimate that the dollar value of the undetected UI overpayments in California, New
Jersey, Illinois, and Kentucky, is $17,002,538 ($8,831,201 + $8,171,337) for our audit period. Our
UI profile analysis of employer characteristics did not show any differences between employers who
respond to wage requests and those who do not respond. However, as suggested by SESA personnel
in one state, events such as mergers, business closings, and layoffs may have inflated the non-response
rate, and thus increased our estimate of undetected overpayments.

Conclusions

For four of the seven states in our audit, and for the four most recently completed quarters, we
estimate that an additional $17,002,538 in overpayments could have been established had employers
returned all wage requests. Our survey of all SESAs shows that 42 percent of the SESAs had a 25
percent or higher non-response rate to employer wage requests, and 34 percent of the SESAs had a
non-response rate of 10 - 24 percent. We believe millions of dollars in additional overpayments are
also being undetected in other states because employers are not responding to states’ wage requests.

Although we acknowledge the assertion by SESA personnel in one state that certain business events
may have affected the employer non-response rate, thereby impacting our estimate of undetected
overpayments, such occurrences would have little overall effect considering the thousands of employers
included in our examination.


C.      Many Employers, Including Major Corporations, Failed to Respond to Wage
        Requests

Employers in the seven states did not return a total of 825,793 wage requests, or nearly 34 percent of
those that had been mailed. (See Figure C.1 and Exhibit C.1.) We analyzed data related to the wage
requests to identify specific employers who were not responding to single state or multiple states’ wage
requests. We found certain employers and service providers
seldom, or never, returned wage requests. (Examples of such employers are listed in Figure C.4 and
Exhibit C.5.)


                                                    8
                                    Total Wage Requests Sent and Non-Response Rates
                                                                                                                     2,433,156

                                                                                                      1,748,603




                                                           371,581
                            105,344                                        88,064       85,854                    825,793
                 30,739                       2,971
                                                                                                   448,347
                                                      243,964
             14,683       48,824         520                         33,834         35,621

      47.77%          46.35%        17.50%       65.66%          38.42%        41.49%         25.64%         33.94%

      Illinois     New Jersey      Maryland      Florida        Kentucky       Texas         California      Total


                                              Wage Requests                 Non-Responses

 Figure C.1




Our examination covered a total of 1,503,671 claims for which 2,433,156 wage requests (see Exhibits
C.1 and C.2) were sent to the claimants’ employers during the four most recently completed quarters.
(The most recently completed quarters differed for each state. See the Scope section of this report.)
Each quarter, the seven states sent wage requests to an average of 153,831 unique5 employers. (See
Exhibit C.3.)

Our analysis of data in three BARTS states (Illinois, New Jersey and Kentucky) covered 224,147
wage requests. We concluded that the non-response rate of the major service providers was
significantly disproportionate when compared with the number of wage requests sent to them for reply.
For this reason, we analyzed the unreturned wage requests in three BARTS states and California by
two groupings, those sent to major service providers, and those sent directly to employers.

Our similar analysis of California data disclosed that a total of 1,748,603 wage requests were sent
during our audit period. We found that, just as in the BARTS states, the service providers had a much
higher incidence of not returning the wage requests than the numbers sent to them would suggest.




         5
             An employer from whom one or more claimants may have received wages during that quarter.

                                                                   10
Without More Aggressive Followup, Major Service Providers Seldom Return Wage Requests

The BARTS states’ records showed that 80 percent of the wage requests sent to major service
providers were unreturned. California, with its more aggressive followup program, had 37 percent of
the wage requests sent to major service providers unreturned.

The data base tracking system of the three BARTS states provided the information allowing us to
analyze wage requests not returned by major service providers. Our detailed analysis identified wage
requests sent to three major service providers: The Frick Company, Gates McDonald, and Harrington.
During our examination period, 224,147 wage requests were mailed by the BARTS states, of which 15
percent (34,210) were sent to the three major service providers. Those service providers did not
return 80 percent (27,238) of the 34,210 wage requests. (See Figure C.2 and Exhibit C.4.)

The crossmatch tracking systems for other states in our audit, except California, did not maintain the
computer automated data that would allow us to precisely determine the non-response rate for their
service providers. However, interviews with their BPC personnel confirmed that, based on their
experience, service providers often did not return wage requests.

We performed a separate analysis of the data obtained from California. The State had developed a
followup system which lowered their non-response rate dramatically. California sent 31,096 wage
requests to the major service providers, of which 37 percent (11,481) were not returned. (See
Figure C.3 and Exhibit C.4a.) Although this non-response rate for service providers remains high, it
represents a profound improvement compared to the 80 percent non-response rate typical of the
BARTS states in our audit.

Aggressive Followup is Needed to Obtain Responses to Wage Requests Sent Directly to
Employers

While the non-response rate for wage requests sent directly to employers is not as severe as with
service providers, it nevertheless is very significant. We excluded major service providers, and
performed a separate analysis for wage requests sent directly to employers6 for the same three BARTS
states in our audit. The analysis revealed that the three BARTS states sent 189,937 wage
requests directly to UI claimants’ employers, and 70,103 wage requests (37%) were not
returned.

The following Figures C.2 and C.3 depict the non-response rates of service providers and employers in
the BARTS states and California. (See Exhibit C.4 and C.4a.)




        6
            Includes unidentified service providers.

                                                       11
                                 Only BARTS States Total Wage Requests
                                            Employers who




     Figure C.2




Our separate analysis of the California data found a lower non-response rate, which we attribute to
California’s followup practices. California sent 1,717,507 wage requests directly to employers,7 of
which 25 percent (436,866) were not returned. (See Figure C.3.) Although high, this represents a
significant improvement compared to the 37 percent non-response rate typical of the BARTS states in
our audit.


                                   Only California Total Wage Requests
E                                                                                               mplo
ye                                                                                               rs
w                                                                                                ho




     Figure C.3




          7
              Includes unidentified service providers.


                                                         12
We further examined the non-responses by individual employers and found many employers never
responded to wage requests.

Some Employers Who Were Sent Multiple Wage Requests Never Responded

For five states, Illinois, New Jersey, Texas, Kentucky, and California, we extracted and analyzed lists
of employers who never responded to wage requests. Similar information for the remaining two states,
Maryland and Florida, was not available.

We developed a list of non-responding employers who received a high volume of wage requests and
did not respond to any. In the 5 states, 346 employers received numerous wage requests and opted
not to respond to a single one during the period we examined.

We found many of these employers to be well-known and major national corporations. These
companies are responsible for thousands of unreturned wage requests, some mailed to them or their
service providers by multiple state UI programs. Such companies included:

    C   Illinois Bell
    C   K-Mart Corp.
    C   Sears
    C   Toys R Us Inc.
    C   Bell Communication
    C   Emerson Electronics Co.
    C   United Parcel Service, Inc.
    C   Wal-Mart Stores, Inc.
    C   Lockheed Corporation
    C   GTE
    C   Honeywell, Inc.

We grouped the 346 high non-responding employers by their respective industries (when possible) to
help identify different groups of non-responding employers. These groups are: airlines, banks and
financial organizations, communication organizations, government and publicly funded agencies, retail
and food businesses and temporary employment agencies. Due to insufficient information, we could
group only 89 of the 346 identified high non-responding employers. (See Exhibit C.5.)




                                                  13
Our analysis also shows 26 employers, listed in Figure C.4, were high non-responding employers in
more than one of the states in our audit.

The pattern indicated by our analysis leads us to conclude that wage requests received by these
employers from other states which were not included in our audit are likely to go unanswered.
                       Non Responding                       SP/                  States and Number
                          Employers                         NSP            of Unreturned Wage Requests

                                                                           IL    TX    NJ    KY      CA
       1.     A B B C E Services Inc.                       NSP                         70    87
       2.     AT&T                                             SP          419   182    37
       3.     ADIA Service Inc.                           SP/NSP            77   310   139
       4.     Aramark Educational Group                     NSP                  299         100
       5.     Aramark Leisure Services Corp               SP/NSP                        36   118
       6.     Babcock & Wilcox Construction                 NSP             16          46   162     587
       7.     Brown & Root Inc.                                SP                663                 243
       8.     Continental Airlines                             SP                164    70
       9.     Dobbs International Service                      SP           42    77
     10.      E P Management (Talent) Services              NSP             12                     18,429
     11.      General Electric Co.                        SP/NSP                        37   746
     12.      GTE                                              SP           31   323
     13.      Interim Personnel Inc.                           SP                173                3,311
     14.      K-Mart                                        NSP             61   217          75
     15.      Kay Bee Toys & Hobby Shops Inc.                  SP                             28      61
     16.      Manpower International/Indiana                   SP           82               374
     17.      Marriott Educational Services Inc.               SP           31               139
     18.      Mobil Oil                                        SP                146    54
     19.      Norrell Temporary Services                       SP           31         102    74
     20.      Olsten Home Healthcare Inc.                      SP                      106   137
     21.      Olsten Staffing Services Inc.                    SP                112   233
     22.      R R Donnelley & Sons                             SP           26                44
     23.      Sears                                       SP/NSP            64         135   116
     24.      The Kroger Co.                                NSP                  123          69
     25.      United Parcel Services (UPS)                     SP           54   223         268
     26.      Wal-Mart                                         SP                634         424
Figure C. 4

NSP:        Does not use Service Provider
SP:         Uses Service Provider
SP/NSP: Uses Service Provider in one state(s) but not in other state(s).


                                                          14
Conclusions

Clearly, many employers are responsible for the large numbers of wage requests that are not returned.
It is also evident that wage requests sent to the three major service providers identified in our
examination contribute to the problem. We were able to obtain detailed analytical information on four
of the seven states in our audit regarding employer and service provider responses to wage requests.
The available data shows that state crossmatch operations are being significantly hindered and
adversely affected by employers and service providers that consistently fail to respond to state wage
requests.

As our sample of states shows, the problem is not confined to only one region of the country, only to
large states, or only to small employers. Large states like California and Illinois have high non-response
rates just as smaller states like Kentucky and Maryland. Large and well known employers like Wal-
Mart, AT&T, and General Electric Company are as likely as much smaller employers not to respond to
wage requests (also see Section D). The problem is national in scope, and therefore, requires a
nationwide solution.


D.      Employers and Major Service Providers Furnished Some Insight as to Why Wage
        Requests Were Not Returned

We sought to identify the key factors that played an important part in determining whether an employer
would respond to wage requests. Our work in this area included:

        ! an analysis of employer data to attempt an identification of any distinctive characteristics of
          employers that responded to wage requests, and those that did not (information was
          available in four of the seven states we audited);

        ! mail and telephone contact with major non-responding employers to obtain first-hand
          information regarding their understanding of the wage requests; and

        ! meetings with two of the three major service providers.

Employer Characteristics Did Not Predict Whether or Not Employers Would Respond

We built a profile of both responsive and non-responsive employers. We excluded those employers
who used major service providers, since it was established early on that the major service providers
had an extremely high non-response rate to wage requests.

Our profile of characteristics taken from the employer records available at the SESAs included:



                                                   15
        C   maximum tax rate employers;
        C   business status (in or out of business);
        C   geographical location in state (zip code);
        C   type of business by Standard Industry Code (SIC);
        C   size (number of employees);
        C   organizational type; and
        C   length of time in business.

Based on the employer information available from the SESAs, we found no characteristic or
combination of characteristics to be a reliable indicator of whether an employer would respond to wage
requests. Some employers of similar size, with similar tax rates, from the same location in the state, and
generally in the same type of business, may respond to all or most wage requests, while other like
employers may never or rarely answer the wage requests. In essence, our analysis did not show any
significant difference in characteristics between employers that responded and those that did not.

Problems and Factors Cited by Employers for Not Responding

We contacted the major non-responding employers in Illinois to obtain first-hand information regarding
their understanding of the wage requests and their reasons for not responding. We sent questionnaires
and followed up with telephone calls to obtain additional information and to clarify their responses. We
judgmentally sampled 25 employers. Since many of these were large employers with operations in a
number of different states, we believe their responses are a reasonable reflection of many other similar
employers nationwide.

Of the 25 questionnaires mailed, 20 were answered. Thirteen questionnaires were received from
employers whose wage requests were mailed to a major service provider and the remaining seven were
from employers who received the wage requests directly. (See Exhibit D.) In summary, we found:

        ! Information from some employers indicated they do not have a good understanding of the
          UI benefit/wage crossmatch and the purpose of the wage request, and the instructions are
          not clear and understandable. For example, 4 of 20 employers (20 percent) stated they did
          not respond to the wage requests because they decided no overpayment occurred. Such
          employers stated they monitored their own UI benefit charges and determined no
          overpayment occurred and, thus, there was no need to respond to the wage request.
          Employers that used service providers stated the service providers already perform the
          same function as the crossmatch and catch UI overpayments through their UI charge
          verification system. However, their reasoning is flawed because these employers do not
          have sufficient benefit payment information to make such a determination on their own.

        ! Many employers did not realize that they are required by Illinois law to respond to wage
          requests, that the liable employer’s account may be credited if an overpayment is

                                                    16
           established and that preventing, detecting and recovering UI overpayments has a positive
           effect on overall employer UI tax rates.

       ! Seven of 10 employers (70 percent) who responded and used service providers said they
         were unaware the wage requests were not answered. Some of these employers also
         indicated that the wage requests were not being sent to the proper person and/or address.

       ! Twelve of 18 employers (67 percent) who responded indicated that the information
         requested by the state is not readily available. These employers may have to retrieve
         archived payroll records and reconstruct pay information on a weekly, perhaps daily, basis
         to accurately respond to the wage requests. Many of the employers stated that it takes one
         hour or more to process one wage request. Large employers may receive hundreds of
         wage requests per year from a number of states; therefore, the burden can be significant.


Why Service Providers Did Not Respond to Wage Requests

We met with representatives of two of the three major service providersSThe Frick Company in St.
Louis, Missouri, and Gates McDonald in Columbus, OhioSto determine why they did not respond to
wage requests and what can be done to encourage responses from them. The following information
summarizes their comments:

       ! They rarely have contracts with employers to respond to states’ wage requests.

       ! Information needed to complete the form is not always readily available from employer
         records maintained at the service provider. Moreover, wage request forms from different
         states varied significantly in clarity, understandability and the information requested. This
         would make it difficult for service providers to respond to hundreds of wage requests from
         various states even if they were contracted to provide this service.

       ! These service providers are aware of the benefits associated with responding to wage
         requests and, in the past, forwarded wage requests to employers to answer. However, the
         employers requested that the service providers stop forwarding wage requests.

       ! New York imposes a penalty on employers for not returning wage requests. As a result,
         one service provider stated that some employers have contracts with them to respond to
         wage requests for the State of New York.

       ! They would prefer an automated process to provide this service and would be interested in
         meeting with SESAs to discuss the feasibility of developing an automated model.



                                                 17
Conclusions

Difficulty in obtaining the wage information requested, faulty assumptions about the purpose,
misdirected wage requests, and a lack of understanding coupled with indifference by employers and
service providers are all factors in the unacceptably high non-response to wage requests. These factors
will continue to impair the effectiveness of the benefit/wage crossmatch unless a cooperative effort is
initiated by the Unemployment Insurance Service and the states to educate, encourage and follow up
with employers to obtain the critically needed wage information.


E.      Crossmatch Audit Resources Should be Focused on Those Claims with the Highest
        Probability of Overpayments

The states in our audit used their crossmatch audit resources in several different ways. We believe
these states could better use their resources to increase overpayment detections. The following
discussion summarizes:

        ! current practices to select claims for crossmatch audits and to track claims and wage
          requests;

        ! BARTS states’ use of Fraudx Scoring and potential use for focusing follow up on
          unreturned wage requests; and

        ! lack of probability scoring data and tracking systems in non-BARTS states.

Current Practices

The states in our audit used different methods/criteria to select claims for their crossmatch audits. The
three BARTS states used Fraudx, a probability scoring index. Two of the four non-BARTS states
used modified Model Crossmatch Systems, applying variations of the probability index to select
potential overpayment cases for audit. The two remaining non-BARTS states sent wage requests for
all claims remaining after performing the initial screening.

The potential to focus resources on claims with the highest probability of overpayments lies not only in
the initial selection process, but also in careful use of data from the audit tracking system to follow up
on unreturned wage requests. Of the seven states in our audit, only California used an audit tracking
system to conduct outreach efforts with employers who failed to respond to wage requests. The
BARTS states (New Jersey, Illinois, and Kentucky) used their tracking systems to selectively send
follow up wage requests to non-responsive employers. Maryland sent follow up wage requests to all




                                                    18
non-responsive employers.8 Florida and Texas did not follow up at all with employers who failed to
respond to wage requests.

BARTS States’ Use of Fraudx Scoring

The BARTS states used Fraudx to select claims for audit but they did not use it as an effective follow
up tool, even though Fraudx is a good probability indicator of UI overpayments. Figure E.1 shows that
the Fraudx score is significant because higher Fraudx scores produce higher dollar overpayment
determinations. For example, a selected claim with a Fraudx score between 80 and 89 in Illinois has an
estimated overpayment of $1,903, and a selected claim with a Fraudx score between 90 and 99 in
New Jersey has an estimated overpayment of $1,510. Using a probability scoring index, such as
Fraudx, to concentrate follow up efforts on particular Fraudx score groups will maximize UI
overpayment detection efforts. Such an analysis allows the states to follow up on the non-responses
that they statistically project to have the largest overpayment dollars.

                          Average UI Overpayment by Fraudx Score Group

            Fraudx               Average                     Average                    Average
             Score             Overpayment                 Overpayment                Overpayment
            Group                 Illinois                 New Jersey                  Kentucky
             01-09                    $52                        $425                        Î

             10-19                   $341                        $317                        Î

             20-29                   $500                        $340                   Î $177

             30-39                   $624                        $662                      $164

             40-49                   $976                        $731                      $143

             50-59                   $412                     Ï $795                    Ð $125
             60-69                   $505                     Ñ $396                       $185

             70-79                   $645                        $741                      $278

             80-89                 $1,903                     $1,298                       $578
             90-99                 $2,043                     $1,510                       $686
       Figure E.1


       Î    KY did not select any claims for audit with a Fraudx score of 27 or less.
       Ï    In the 50-59 range, NJ selected for audit only claims with Fraudx score 50.
       Ð    In the 50-59 range, KY selected for audit only claims with Fraudx scores of 58 and 59.



       8
        It must be noted that Maryland only mailed 2,971 wage requests, whereas the other states in
our examination mailed tens of thousands of wage requests for our audit period.

                                                        19
        Ñ      In the 60-69 range, NJ selected for audit only claims with Fraudx scores 60 - 62.
In another example, our analysis shows that 66 percent of the total overpayment claims detected by
Illinois and 46 percent of the total overpayment claims detected by New Jersey were within Fraudx
score group 80 - 99 (see Figures E.2 and E.3). Also, 83 percent of the total overpayment dollars
detected by Illinois and 62 percent of the total overpayment dollars detected by New Jersey were
within Fraudx score group 80 - 99. In addition, 72 percent of the total overpayment claims detected
and 79 percent of the total overpayment dollars detected by Kentucky were within Fraudx score
group 70 - 89. The large average dollar overpayments with the concentration of occurrences of
overpayments in Fraudx score groups in Illinois, New Jersey, and Kentucky mean that these states can
focus followup with non-responsive employers in the appropriate Fraudx score group. In addition, the
capability to use these and similar data analyses can aid in better targeting all BPC unit audit efforts to
efficiently detect overpayments.

                            Percentage of Overpayment Claims Within Fraudx Scores


                                         Number of                  Total              Percentage              Average
                                      Overpayments             Number of                  of                Overpayment
                 State                  Detected              Overpayments           Overpayments               per
                                          within                  Detected                                       Claim
                                                      1
                                     Fraudx Group                 by State


              Kentucky                      6,084                   8,508                  0%                   $ 326
                Illinois                    2,764                   4,185                  66%                  $1,998

             New Jersey                     5,220                  11,242                  0%                   $1,353
        1
            Fraudx score group 70 - 89 for Kentucky and Fraudx score group 80 - 99 for Illinois and New Jersey.
      Figure E.2
                           Percentage of Overpayment Dollars Within Fraudx Scores


                                                    Dollar                   Total                Percentage
                                              Overpayments                 Dollar                     of
                           State                Detected                Overpayments             Overpayments
                                                   within                   Detected
                                                              1
                                            Fraudx Group                    by State


                        Kentucky               $ 1,983,286               $ 2,517,389                   79%
                          Illinois             $ 5,522,153               $ 6,659,413                   83%

                       New Jersey              $ 7,062,350               $11,300,006                   62%
                   1
                       Fraudx score group 70 - 89 for Kentucky and Fraudx score group 80 - 99 for Illinois and New Jersey.
                 Figure E.3



                                                                   20
Non-BARTS States May Increase Their Overpayment Identification Efficiency by Better
Use of Probability Scoring and Tracking Systems

Four of the states in our audit did not use BARTS; three of the four did not efficiently identify
overpayments included in claims selected for audit from their crossmatch hits. Two of those states did
not use a probability index, selected all claims after initial screening, and found only 8 percent or fewer
overpayments in the claims selected. One of the other two states selected too few claims for audit to
identify an optimal number of overpayments.

California and Florida did not use a probability index. These states mailed wage requests for all
crossmatch claims remaining after conducting the initial screening. As a result, California selected about
1 million claims and Florida selected about 297,000 claims in our one-year audit period. Only 82,525
claims (approximately 8 percent) with overpayments were found in California and, in Florida, only
4,511 (approximately 2 percent).

Maryland and Texas used modified Model Crossmatch Systems employing a variation of the
probability index to select claims for audit. The Model Crossmatch uses case selection parameters
such as wages earned, UI benefits received, and number of claims to be selected. The number of
claims parameter was limited by both of these states. Maryland selected only 500 or 1,000 claims for
audit per quarter and Texas selected a number of claims for audit consistent with their available
resources. Texas selected about 68,000 claims and detected approximately 12,000 overpayments
(approximately 18 percent).

Selecting claims for audit, tracking wage requests, and following up with non-responsive employers are
difficult without a probability scoring index and a tracking system. The use of a probability scoring
system, such as BARTS with Fraudx, or a similar system, would potentially allow California and
Florida to reduce the number of claims selected for audit, and increase the ratio of overpayment
determination cases. With such a system, they would be able to concentrate on the claims with the
greatest potential for overpayments. Full implementation of both a probability scoring system and a
tracking system would allow all states to effectively pursue claims with the highest overpayment
potential.

Conclusions

Use of a probability scoring index, which gives a state the capacity to identify UI cases with the greatest
potential of containing overpayments, is important to effective and efficient crossmatch operations. We
believe that the states’ BPC units can improve their overpayment detection operations by targeting their
efforts more toward probable high dollar overpayments, rather than attempting to examine all
possible overpayments through mass mailings of wage requests. Precise and refined use of the



                                                     21
probability scoring indexes available in the BARTS and Model Crossmatch systems is a major step
toward this objective.

Our examination demonstrates the benefits of applying a probability index score to the process of
selecting cases for crossmatch audit and follow up. In the BARTS states, for example, 83 percent and
62 percent of the total overpayment dollars detected by Illinois and New Jersey, respectively, related
to claims with the highest probability scores. Texas, using the probability measures of the Model
Crossmatch System, had a much higher overpayment detection rate than states that used no probability
measures, like California and Florida.

We believe that all states could improve their UI overpayment detection operations by applying a
probability index to their crossmatch. Overpayment detections may also be improved by
implementation of the new hire information available through PRWORA. Our evidence suggests that in
some states, the new hire detection method, in combination with the currently operated crossmatch
detection method, could provide the states the best available system of identifying and interdicting UI
overpayments.

See Chapter 3 for our audit recommendations, the Agency’s response, and our final audit
conclusions.




                                                  22
                                             CHAPTER II

        Potential Impact of the Personal Responsibility and Work Opportunity Reconciliation
        Act of 1996 on UI Overpayment Detections, Preventions and Recoveries

A State Directory of New Hires and a National Directory of New Hires are required to be maintained
under the provisions of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996
(PRWORA). A key objective of these Directories is to locate individuals for purposes of establishing
paternity and enforcing payment of child support obligations. However, the SESAs are permitted,
under the PRWORA, access to the information reported by employers and maintained in the
State Directory of New Hires to administer their programs. We reviewed the PRWORA new
hire reporting requirements and, in our opinion, the new hire detection method has the potential to be a
more effective and efficient detection method than the UI benefit/wage crossmatch in detecting UI
overpayments. The following discussion:

        S   summarizes the PRWORA’s requirements;
        S   evaluates the potential to use PRWORA information for effective and efficient detection of
            UI overpayments;
        S   reviews the status of new hire detection at the time of our audit in those states we audited;
            and
        S   points out drawbacks which may limit the effectiveness of using the PRWORA information
            for UI overpayment detection.


A.      PRWORA Requires New Hire Reporting That Can Assist in Overpayment Detections

The PRWORA, enacted on August 22, 1996, calls for the establishment of New Hire Directories at
both the state and National levels. This Act replaced the Aid to Families with Dependent Children
program with the Temporary Assistance to Needy Families (TANF) program. A state’s TANF grant
is conditioned on meeting certain requirements. One of these requirements is that the state operate a
child support enforcement program. As part of the child support enforcement program, the state must
operate a Directory of New Hires by October 1, 1997.

The Directory must contain the name, address, and social security number of each newly hired
individual and the name, address, and Federal employer identification number of the hiring employer.
However, the work start date is not required. If a state chooses to use its Unemployment
Compensation (UC) agency as the collection point for the State Directory, the UC agency will need to
meet any conditions for such Directory established by the PRWORA as interpreted by the Secretary of
Health and Human Services (HHS).




                                                   23
States which had a new hire reporting law in existence on the date of the enactment of the PRWORA
may continue to do so under state law, but the state must meet the requirements
of the PRWORA for collecting new hire data from employers for the State Directory by
October 1, 1998.

Under the PRWORA requirements, a multi-state employer (an employer that has employees in two or
more states) that transmits new hire reports magnetically or electronically, may designate one state in
which the employer has employees as the recipient state for new hire reports of all new hires. Any
employer who does this is required to notify the Secretary of HHS in writing which state has been
chosen for reporting new hires.

A state can set the time frame within which the new hire reports must be made by employers. However,
they must be made not later than 20 days after the date the employer hires the employee, or in the case
of an employer transmitting reports magnetically or electronically, by 2 monthly transmissions (if
necessary) not less than 12 days nor more than 16 days apart. Employer new hire information is to be
entered into the data base of the State Directory of New Hires within 5 business days of receipt from
the employer.

At the National level, in order to assist the states in administering their TANF programs, the Secretary
of HHS, established on October 1, 1997, a National Directory of New Hires in the Federal Parent
Locator Service. Within 3 business days after the date new hire information from an employer is
entered into the State Directory, the state is to furnish the information to the National Directory. This
information is to be entered into the National Directory data base within 2 business days of receipt. In
addition, the Secretary is to maintain within the National Directory of New Hires a list of multi-state
employers that report new hires from all states to one designated state, as well as the designated state
of those employers.

Under PRWORA’s current provisions, state UI programs do not have access to the National Directory
of New Hires. DOL is discussing with HHS potential uses of the directory information for UI
purposes. (See page 27.)


B.      New Hire Detection Has the Potential to be a More Effective Detection Method than
        the UI Benefit/Wage Crossmatch

One of our primary audit objectives was to determine the potential impact new hire data required by
the PRWORA could have in preventing, detecting, and recovering UI overpayments. We refer to the
use of the PRWORA data in assisting UI benefit payment controls as the “new hire detection” method.
In our opinion, the new hire detection method has the potential to be more effective and efficient than
the UI benefit/wage crossmatch in detecting UI overpayments because it could:



                                                    24
        --   enable earlier detection and improve overpayment recoveries;
        --   eliminate or reduce the need to follow up with employers;
        --   reduce the burden on employers;
        --   prevent improper claims from being paid; and
        --   provide a deterrent value.

Enable Earlier Detection and Improve Overpayment Recoveries - The new hire detection
method would identify overpayments much earlier than the crossmatch. The PRWORA requires an
employer to report not later than 20 days after the employee is hired. This new hire information can
then be quickly matched against ongoing claims records to determine whether a benefit overpayment
may have occurred because of additional earnings. In the case of the benefit/wage crossmatch, the
determination of an overpayment occurs months later because of the time lag in obtaining quarterly
earnings data from employers, and the time-consuming process of obtaining and processing wage
request information.

The crossmatch is performed quarterly, matching weekly UI benefits against total quarterly reported
wages. This match-up cannot be done until quarterly wage information is received from employers, and
input into the state’s employer wage history files. This process takes from 3 to 5 months after the end
of the quarter. Another 3 or 4 months are consumed in screening and selecting claims for audit, mailing
wage requests, processing the information returned by employers, and making overpayment
determinations. By the time the overpayment had been established, many months would have passed
since the overpayment occurred, resulting in a higher overpayment amount than if the claim had been
investigated much earlier through the new hire detection method.

As a result, the new hire detection method could reduce the dollar amount of overpayment cases, and,
thus, make recoveries less difficult. New hire detections provide the opportunity for SESAs to identify
and stop improper benefit payments before the claimant exhausts the benefit entitlements. Many
overpayments could be identified within a short time after the first benefit payment. Therefore,
recoveries may improve because of early detections, resulting in smaller cumulative overpayment
amounts.

Eliminate or Reduce the Need to Follow Up with Employers - SESAs would be able to screen out
claims where benefit weeks are not in conflict with the new hire information, thereby eliminating or
reducing unnecessary contacts with employers. This process would avoid wasted time and resources
by SESAs and employers caused by examining many low probability overpayment cases which are a
normal part of the crossmatch process.

Reduce the Burden on Employers - The new hire information is less burdensome because
employers are not required to research payroll records several months old, and report daily or weekly
earnings to meet the many different requirements of each state’s wage requests. Based on our
employer survey, it is evident that several employers had difficulty understanding and complying with the

                                                   25
wage requests. The time-consuming task of responding to a large volume of wage requests is a major
complaint and drawback to the current benefit/wage crossmatch system.


Prevent Improper Claims from Being Paid - New hire information can be used not only for the
detection of UI overpayments, but for the prevention of improper UI payments. In some instances,
because of early intervention, an improper claim may be denied. This is particularly true if a claimant
delays in filing the improper claim, giving the SESA time to receive the new hire information from the
employer.

Provide Deterrent Value - As overpayment detections are publicized, and as claimants become
aware that employers are providing new hire information to the states, there may be a reduction of
repeat and first time offenders. The deterrent effect of early detections, timely recoveries, and the
denial of improper claims before payment would ultimately pay dividends for the integrity of the UI
Trust fund.


C.      New Hire Detections in the States Audited are at Different Stages

We determined whether the states in our audit had a new hire detection system in place prior to the
PRWORA. For the states that had a system in place, we determined the impact the PRWORA would
have on their current new hire detection practices. For the states that had no new hire detection system
in place prior to the PRWORA, we determined if they had plans to use new hire information to detect
overpayments in the future. A table summarizing the status of new hire detection for the states in our
audit at the time of our fieldwork follows:


                  New Hire     Future Plans       State will        PRWORA                Agency that
                  Detection    for New Hire       Require           Reporting             Will Maintain
                  in Place       Detection      The New Hire      Requirements              Required
      State       Currently       System       Work Start Date      in Place                Directory


  Florida            Yes           Yes               Yes                No            FL Dept of Revenue
  Texas              Yes           Yes               No                 No            TX Attorney General
  Kentucky           No         Considering          Yes                No             KY Child Services
  California          No            Yes              Yes                No                  SESA**
  Illinois            No            Yes              No*                No                  SESA**
  New Jersey          No            Yes              No                 No          NJ Health Human Servs
  Maryland            No            Yes              Yes                No          MD Health Human Servs

 * Will be requested but not required
 ** California Employment Development Department and Illinois Department of Employment Security



                                                     26
A summary of each of the states’ new hire status is provided in Appendix 1. The summary covers, if
appropriate, for each of the states we audited the following: new hire reporting under state law, how
new hire lists are used, new hire benefits, new hire results, and new hire expectations.
The mix of optimistic anticipation and misgivings on the part of state officials regarding a new hire
detection method points to a need for UIS leadership regarding this approach to overpayment detection
and prevention. For instance:

       S       Florida has had the most extensive experience to date with using new hire information
               required under its state law preceding the requirements of PRWORA. As a result of its
               experience beginning in January 1995, Florida officials consider the new hire method to
               be more advantageous overall than the UI benefits/wage crossmatch to control UI
               benefits overpayments.

       S       Conversely, Kentucky’s experience, beginning in October 1994 under its State law,
               has not been as successful. Kentucky officials cited a low 20 percent employer
               response rate and inaccurate information provided by employers as factors causing few
               UI overpayments to be detected.

       S       Texas, since September 1, 1993, has had a voluntary new hire reporting system.
               Although Texas officials have not attempted to evaluate the effectiveness of their results
               using the new hire system, they are of the opinion this will become their most effective
               detection method.

       S       Both Illinois and New Jersey officials expressed concerns about staffing and funding
               resources involved in using the new hire detection method. However, each state
               indicated they plan to examine the feasibility of implementing new hire detections.

       S       Even though California had not yet, at the time of our audit, used the new hire detection
               method, SESA officials estimated that doing an earlier audit through new hire detection
               will reduce benefit overpayments by as much as $9.5 million annually in the state.

       S       Although Maryland plans to use the new hire data for UI benefit overpayment
               detection, they are in the early stages of determining how their procedures will be
               carried out.


D.     Provisions in PRWORA Legislation Present Obstacles to Using New Hire Reports for
       UI Overpayment Detection

We evaluated the potential impact new hire data required by the PRWORA could have in preventing,
detecting, and recovering UI overpayments. In the process of our evaluation, we identified several

                                                  27
potential obstacles in the current requirements of the PRWORA, which would need to be addressed to
make new hire data from the State and National Directories more effective in determining UI
overpayments.

Three concerns we noted were:

       --      Employers are not required to report the date the new hire started work.

       --      PRWORA does not specifically state whether an employee rehired from a layoff is
               considered a new employee.

       --      PRWORA does not allow SESAs access to information from the National New Hire
               Directory.

Employers are not Required to Report the Date the New Hire Started Work

The Division of Legislation of the UIS of ETA has proposed that the work start date be required by
the PRWORA to make the new hire information more definitive for the purpose of determining a
conflict in benefit payments and wages earned. For new hire detections, this is a key date which would
make this detection method more effective and efficient. Currently, the employers are required to
report new hires not later than 20 days after the hire date, but the work start date is not required.
Because 20 days spans almost 3 weeks, the new hire information is not as precise as it could be if a
new hire date is required. In our opinion, the new hire information would be most effective for
preventing and detecting UI overpayments if the work start date was included.

PRWORA Does Not Specifically State Whether an Employee Rehired from Layoff is
Considered a New Employee

UI benefit payments are often made to employees who have been laid off during business downturns.
These employees are frequently rehired by their layoff employer. The current requirements of
PRWORA are silent regarding reporting a rehired employee as a new hire. For the purposes of
effective UI benefit overpayment detection, reported new hires must include employees rehired after a
layoff.

PRWORA Does Not Allow SESAs Access to Information from the National New Hire
Directory

While the PRWORA allows SESAs access to the State Directory of New Hires, it does not allow the
SESAs access to the National Directory of New Hires. In our opinion, the SESAs need access to
obtain information on new hires reported by multi-state employers, and new hires in other states



                                                  28
(particularly neighboring/adjacent states). The SESAs can then match this information against their
claim files to determine possible UI overpayments.

The UIS Division of Legislation has been working with the Office of Management and Budget (OMB)
and HHS to permit ETA, SESAs and other DOL Agencies access to the National Directory of New
Hires. In September 1998, DOL submitted a legislative program proposal for Calendar Year 1999 to
OMB amending section 453 of Title IV of the Social Security Act. This proposal would require HHS
to provide data from the National Directory of New Hires to DOL and the states for UI administrative
purposes, such as, fraud detection of UI overpayments.

ETA/UIS and the Interstate Conference of Employment Security Agencies have been working together
in an attempt to gain access to the new hire information in the National Directory.

See Chapter 3 for our audit recommendations, the Agency’s response, and our final audit
conclusions.




                                                   29
                                             Chapter III

                                         Recommendations

Based on our audit results, we believe optimal overpayment prevention and detection will be
accomplished through use of the State and National Directories of New Hires, in conjunction with an
effective benefits/wage crossmatch program. Accordingly, our recommendations are intended to meet
two objectives: to provide guidance and specific corrective measures that will make the benefit/wage
crossmatch more effective in identifying UI overpayments, particularly in regard to increasing the
response rate to employer wage requests; and to provide information and direction concerning critical
features necessary for effective implementation and operation of a new hire detection program made
possible under provisions of the PRWORA.


A.     Recommendations to Improve Crossmatch Overpayment Detection

We estimated that, for four states in our audit, $17 million of overpayments went undetected because
wage requests were not returned by employers. We also reported that probability index scoring could
have been used to enhance crossmatch effectiveness in identifying and following up on claims with the
highest likelihood of overpayments.

To address these and other concerns raised in our report, we recommend that the Assistant Secretary
for Employment and Training:

       1.      develop a National strategy and policy working in conjunction with the SESAs to
               ensure employers and their service providers (when required under contract) are aware
               that they are responsible to provide the information sought on wage requests;

       2.      remind all SESAs to review their wage request form to ensure it clearly discloses the
               purpose for obtaining the requested information, along with the state statutory authority
               and requirements for providing the information. Any applicable employer sanctions or
               penalties under state statute for not complying should also be prominently disclosed;

       3.      encourage SESAs to consider imposing a penalty on employers who do not respond to
               wage requests;

       4.      encourage SESAs to implement a concerted and determined followup with employers
               who fail to respond to wage requests. UIS should develop specific policies and
               procedures in the form of program instructions to the SESAs on how best to follow up
               with employers that persistently fail to respond to wage requests. Special emphasis
               should be directed toward employers using the major service providers identified in our

                                                  30
                report and other service providers, who may operate in a similar fashion, since these
                employers have the highest non-response rates. The states, based on instructions from
                UIS, should develop their own specific policies and procedures to address this
                problem. Specific actions to be considered by the SESAs should include:

                S       mailing followup wage requests to all employers who fail to respond to the initial
                        request. To accomplish this, SESAs must maintain a data base of employers
                        who were mailed wage requests, and establish a tracking system to readily
                        identify and follow up with employers who failed to respond;

                S       contacting employers by phone and/or site visits to determine the reasons any
                        employer repeatedly fails to answer wage requests so corrective actions can be
                        taken. To facilitate such an outreach program, employers may be targeted by
                        groups, e.g., employers using service providers, large employers, small
                        employers, employers receiving the greatest number of wage requests, and so
                        on; and

                S       directing SESAs to reexamine their mailing address files. When wage requests
                        are not answered, SESAs must determine whether the requests are being
                        mailed to the correct address, employer, or to the proper service provider in
                        lieu of employer;

        5.      develop a National system and framework for SESAs to follow up with multi-state
                employers and multi-state service providers who regularly fail to answer wage requests,
                rather than each state individually attempting to resolve the problems;

        6.      encourage SESAs to apply a probability scoring system to identify claims with the
                greatest potential for overpayments. This technique increases the efficiency of the
                crossmatch, and lessens the burden on employers having to respond to large numbers
                of low-probability overpayment claims; and

        7.      require SESAs to report to UIS the progress of their followup actions as a part of their
                regular BPC reports.
The SESAs, whether they decide to implement all or some of our crossmatch recommendations, may
use the new hire provisions of the PRWORA to augment their BPC operations. A new hire detection
system has the potential to become the primary BPC detection method and the crossmatch would then
be a secondary system used to verify the accuracy and completeness of the new hire reporting by
employers. Our audit suggests that in some states, the crossmatch, in conjunction with new hire
information, could provide the states the best available system for identifying and preventing UI
overpayments, as well as facilitating the recovery of overpayments.



                                                   31
B.     Recommendations to Enhance the New Hire Detection Programs Under PRWORA

We recommend that the Assistant Secretary for Employment and Training take a leadership role in
encouraging the SESAs to carry out effective new hire detection programs by:

       1.      coordinating state new hire detection efforts on a National basis and serving as a focal
               point for the state UI programs to share effective ideas and procedures in carrying out
               new hire detection programs;

       2.      working with the states, HHS, OMB, Congress, and other Federal entities to amend
               PRWORA legislation so that:

               S       employers are required to report the work start date for new hires;

               S       the definition of new hires is clarified to include rehires; and

               S       appropriate Federal and state agencies have access to the National Directory
                       of New Hires;

       3.      ensuring, if the SESA is designated to maintain the State Directory of New Hires, that
               the PRWORA new hire reporting requirements are adopted and that employers are
               reporting the required information timely. If a state agency other than the SESA is
               designated to maintain the State Directory of New Hires, they need to work with the
               designated agency to make sure PRWORA requirements are met and that employers
               are complying by providing the necessary information. In addition, although not
               presently required by the PRWORA, the states could require the employer to provide
               the work start date for the newly hired employee. This date will make it easier to
               determine if a new hire’s claim should be audited for a potential overpayment;

       4.      requiring SESAs that are designated to maintain the State Directory of New Hires to
               monitor employer compliance with reporting requirements of PRWORA in order to
               identify employers who are not reporting new hires. If employers fail to abide by the
               reporting requirements, the SESAs new hire overpayment detection will be ineffective;

       5.      ensuring that when a state agency other than the SESA has been designated to maintain
               the State Directory of New Hires, the SESAs obtain an agreement with the designated
               agency to monitor employer compliance and have timely (perhaps daily) access to the
               new hire data in order to detect UI overpayments;

                                                    32
        6.      encouraging SESAs to establish a system for evaluating the results, determining the
                effectiveness and weaknesses of new hire detection methods so that improvements can
                be implemented; and

        7.      requiring the SESAs to provide UIS the specific measures they have taken to
                implement or improve their new hire detection program, and the impact it has had on
                the benefit/wage crossmatch and other detection methods. In addition, the SESAs
                should be required to specifically report their new hire detection results on the “ETA
                227 Overpayment Detection/Recovery” report.

Agency Response and Audit Conclusions

The Unemployment Insurance Service responded that the “problems [cited in our report] appear to be
widespread in the UI system,” and the Agency is “in general agreement with the findings and
recommendations.” UIS acknowledged “the need to improve the administration of the wage/benefit
crossmatch process through obtaining a higher response rate from employers to SESA requests for
weekly wage data,” and concurred with our conclusions and assessments of the potential benefits of the
New Hire reporting system.

However, despite UIS’ positive response to our report findings, the Agency said nothing about initiating
a corrective action plan. UIS stated only that it would “distribute copies of the final report to the
SESAs and urge them to take appropriate actions.” We believe much more UIS involvement is needed
to improve BPC operations. As our report clearly points out, the problems we described cannot be
solved by relying on the SESAs alone to correct the problems. UIS must be proactive and provide the
policy, leadership, coordination of resources, and regulatory assistance necessary to make the
improvements in the UI system addressed by our audit recommendations.

For instance, service providers are active in most, if not all, of the SESAs, and in most cases are not
responding to requests for wage information. We have reported that California has met with some
success in obtaining the needed information by directly contacting the service providers. However,
California’s actions have not assisted the response rates for the other SESAs and has not totally
resolved its own service provider problem. We believe that UIS must coordinate resources and
establish a coherent and comprehensive policy to assist SESAs in addressing this issue. One option is
to advise SESAs to forward all wage requests directly to the responsible employers, rather than to the
non-responding service providers. UIS leadership is needed to ensure conflicting or redundant actions
are not taken independently by each SESA to resolve a problem common to them all.

In another example, most states have large national employers paying wages within their jurisdictions.
The new hire reporting requirements allow such large employers the option to report all new hires to
any single state they select for reporting purposes. In those states where new hires are employed but

                                                   33
not reported under this option, the new hire reporting system’s effectiveness for identifying UI
overpayments will be seriously compromised. UIS must pursue actions at the national level to assist the
SESAs in addressing and resolving this problem that will be common to SESAs using new hire
detection methods.

In summary, we believe that UIS must provide the direction and leadership necessary to effectively
resolve these and other findings and recommendations presented in this report.




                                                  34
                                                                                                         Exhibit A
                            Results of Survey Questionnaire Sent to SESAs
                     The Percentage of Claims for Which Employers Did Not Return
                                            Wage Requests


                                      Claims Non-                                                   Claims Non-
 No.       SESA                       Response Rate              No.     SESA                       Response Rate

        1. Pennsylvania                      47%                  28.    Wisconsin                      20%
    2.     New Jersey                       45%                   29.    Iowa                           17%
    3.     Illinois                        40-45%                 30.    Oklahoma                      15-20%
    4.     Florida                          40%                   31.    Maine                          15%
    5.     Arizona                          35%                   32.    Nevada                         15%
    6.     Tennessee                        35%                   33.    New York                       15%
    7.     Texas                            34%                   34.    Oregon                         15%
    8.     Delaware                        30-40%                 35.    West Virginia                  15%
    9.     Arkansas                         30%                   36.    Wyoming                        15%
   10.     Mississippi                      30%                   37.    New Hampshire                  12%
   11.     Alabama                          29%                   38.    Louisiana                     10-15%
   12.     Maryland                         27%                   39.    Utah                          10-15%
   13.     California                       26%                   40.    Minnesota                      10%
   14.     Idaho                           25-45%                 41.    Rhode Island                    7%
   15.     Alaska                           25%                   42.    Connecticut                   5-10%
   16.     Colorado                         25%                   43.    Georgia                       5-10%
   17.     Kansas                           25%                   44.    Nebraska                      5-10%
   18.     Kentucky                         25%                   45.    New Mexico                    5-10%
   19.     Montana                          25%                   46.    North Dakota                   5-8%
   20.     Puerto Rico                      25%                   47.    Indiana                         NA
   21.     South Carolina                   25%                   48.    Michigan                        NA
   22.     Virginia                         25%                   49.    Vermont                         NA
   23.     North Carolina                   23%                   50.    Washington D.C.                 NA
   24.     Missouri                         22%                   51.    Hawaii                          No
   25.     Ohio                             22%                   52.    Virgin Islands.                 No
   26.     South Dakota                     20%                   53.    Massachusetts                    *
   27.     Washington                       20%

Bold       - SESAs were selected for our nationwide audit        NA     - Not Available
*          - Did not respond to the survey questionnaire         No     - No Crossmatch performed

Note:      These statistics were provided by the SESAs and were not subjected to audit verification.




                                                            35
                                                                                                                                          Exhibit B.1
                                                                                                                               1
                             Estimated Dollar Value of Non-Responses for BARTS States and California

    (1)        (2)            (3)           (4)             (5)             (6)              (7)          (8)            (9)              (10)

                             Claims     Claims with   Dollar Value of    Average         Percentage     Claims        Potential         Estimated
             Total            with      Overpayme     Overpayments      Overpayment of Claims with      with No     Claims with         Value of
   State     Claims      Response Established          Established      Established      Overpayment   Responses    Overpayment Non-responses



  IL            17,747         11,206         4,185        $6,659,413         $1,591       37.3%            6,541               2,404     $4,116,964

  NJ            49,305         37,231        11,242       $11,300,006         $1,005       30.2%           12,074               3,435     $3,655,289

  KY            57,912         41,637         8,508        $2,517,389             $296     20.4%           16,275               3,262     $1,058,948

  CA         1,010,240        846,560        82,525       $42,299,559             $513      9.7%          163,680              15,942   $8,171,3372



  Total     1,135,204        936,634       106,460      $62,776,367               $590                   198,570           25,043       $17,002,538




Explanation of columns:


           Column 1 -           Three BARTS states and California.

           Column 2 -           The total number of claims selected for audit by the SESA.

           Column 3 -           The number of responses received by the SESA from employers.

           Column 4 -           The number of overpayment determinations made from these responses.

           Column 5 -           The dollar value of the overpayment determinations.

           Column 6 -           The average dollar value of the overpayment determinations (rounded down).

           Column 7 -           The percentage of responses that resulted in an overpayment determination (rounded down).

           Column 8 -           The number of non-responses.

           Column 9 -           The estimated number of these non-responses that will result in an overpayment (rounded down).

           Column 10 -          The estimated dollar value of the non-responses. (For BARTS states, see Exhibit B.2, Estimated Dollar Value, total of
                                individual Fraudx scores.)




                         1
                         Data required to compute estimated value of non-responses for other than the above states was not
               available. Therefore, we were unable to make similar estimates for Florida, Texas, and Maryland.

                         2
                        Unlike the BARTS states, detailed information by Fraudx score estimating the dollar value of non-
               responses was not available. This information was, however, based on the ratio of confirmed overpayment
               crossmatch cases to total crossmatch cases.

                                                                             36
                                                                                                                        Exhibit B.2
                                                                                                                        Page 1 of 8
                                  Estimated Dollar Value of Non-Responses for IL

 (1)      (2)     (3)             (4)              (5)            (6)           (7)        (8)             (9)            (10)
                 Claims       Claims with    Dollar Value of    Average     Percentage   Claims         Potential       Estimated
Fraudx   Total    with        Overpayment Overpayments          Overpay      of Claims   with No       Claims with       Value of
Score Claims Responses        Established     Established      Established Overpayment Responses        Overpay       Non-responses


   1        7             4              1               $13          $13     25.0%                3              0                $0
   2        3             1              0                $0           $0     0.0%                 2              0                $0
   3        4             1              1               $44          $44    100.0%                3              3              $132
   4        6             4              0                $0           $0     0.0%                 2              0                $0
   5        8             5              0                $0           $0     0.0%                 3              0                 $0
   6       14            10              2               $57          $28     20.0%                4              0                 $0
   7        7             3              0                $0           $0     0.0%                 4              0                 $0
   8       18            13              1               $76          $76     7.6%                 5              0                 $0
   9       17            10              1          $124           $124       10.0%               7               0              $0
  10       17            14              5          $477            $95       35.7%               3               1             $95
  11       24            17              5         $1,053          $210       29.4%               7               2           $420
  12       20            17              4         $2,977          $744       23.5%               3               0              $0
  13       28            17              6         $3,426          $571       35.2%              11               3          $1,713
  14       39            34              7         $1,695          $242       20.5%               5               1           $242
  15       42            33              6         $2,812          $468       18.1%               9               1           $468
  16       41            34              7          $756           $108       20.5%               7               1           $108
  17       56            42             11         $5,152          $468       26.1%              14               3          $1,404
  18       55            40             13         $4,275          $328       32.5%              15               4          $1,312
  19       95            67             15         $4,336          $289       22.3%              28               6          $1,734
  20       80            63             13         $6,706          $515       20.6%              17               3          $1,545
  21      105            80             13         $5,990          $460       16.2%              25               4          $1,840
  22       98            77             20         $8,072          $403       25.9%              21               5          $2,015
  23      112            76             22         $7,355          $334       28.9%              36              10          $3,340
  24      101            73             19         $4,299          $226       26.0%              28               7          $1,582
  25      106            73             25        $11,582          $463       34.2%              33              11          $5,093
  26       81            57             16         $9,462          $591       28.0%              24               6          $3,546
  27       74            56             19        $19,990         $1,052      33.9%              18               6          $6,312
  28       40            31             15         $7,027          $468       48.3%               9               4          $1,872
  29       39            27              8         $4,532          $566       29.6%              12               3          $1,698
  30       46            33              8         $2,235          $279       24.2%              13               3           $837
  31       29            20              5         $3,103          $620       25.0%               9               2          $1,240
  32       31            20              7         $4,458          $636       35.0%              11               3          $1,908
  33       38            27             10         $5,529          $552       37.0%              11               4          $2,208
  34       18            13              6         $3,631          $605       46.1%                5              2          $1,210
  35       17             8              3         $1,942          $647       37.5%                9              3          $1,941
  36       10             7              4         $1,121          $280       57.1%                3              1           $280
  37       12             8              7         $9,553         $1,364      87.5%                4              3          $4,092
  38       16            10              1         $1,128         $1,128      10.0%                6              0              $0
  39       11             7              2          $383           $191       28.5%                4              1              $191
  40       10            10              5         $4,949          $989       50.0%                0              0                $0
  41        5             3              0             $0            $0       0.0%                 2              0                $0


                                                                 37
                                                                                                                          Exhibit B.2
                                                                                                                          Page 2 of 8
                                  Estimated Dollar Value of Non-Responses for IL

 (1)      (2)     (3)             (4)               (5)            (6)            (7)        (8)             (9)            (10)
                 Claims       Claims with     Dollar Value of    Average      Percentage   Claims         Potential       Estimated
Fraudx   Total    with        Overpayment Overpayments           Overpay       of Claims   with No       Claims with       Value of
Score Claims Responses        Established      Established      Established Overpayment Responses         Overpay       Non-responses


  42        5             4               1           $429          $429        25.0%                1              0                 $0
  43        7             4               0               $0             $0      0.0%                3              0                 $0
  44        3             3               2         $4,837         $2,418       66.6%                0              0                 $0
  45      194        122                 57        $49,991          $877        46.7%           72                 33         $28,941
  46      187        140                 52        $56,482         $1,086       37.1%           47                 17         $18,462
  47      381        245                104       $123,254         $1,185       42.4%          136                 57         $67,545
  48       351       215                 89       $102,332         $1,149       41.3%          136              56           $64,344
  49     2,171     1,512                542       $489,600          $903        35.8%          659             236          $213,108
  53         3         3                  0             $0             $0       0.0%             0               0                $0
  54         3         2                  1             $4             $4       50.0%            1               0                $0
  55         1         0                  0             $0             $0       0.0%             1               0                $0
  56        2             0               0             $0            $0        0.0%                 2              0                $0
  57        6             6               2          $467           $233        33.3%                0              0                $0
  58        7             4               2         $1,224          $612        50.0%                3              1              $612
  59        7             3               1          $781           $781        33.3%                4              1              $781
  60        5             5               0             $0             $0       0.0%                 0              0                $0
  61        9             8               1         $1,010         $1,010       12.5%                1              0                $0
  62        4             4               0             $0             $0       0.0%                 0              0                $0
  63       11             7               2         $1,245          $622        28.5%                4              1              $622
  64       11             7               3          $265            $88        42.8%                4              1             $88
  65       24            15               3         $1,732          $577        20.0%                9              1           $577
  66       25            22               9         $3,799          $422        40.9%                3              1           $422
  67       27            19               9         $4,831          $536        47.3%                8              3          $1,608
  68       38            28               7         $1,029          $147        25.0%              10               2           $294
  69       56            45              16        $11,348          $709        35.5%              11               3          $2,127
  70       61            52              12         $5,826          $485        23.0%               9               2           $970
  71      107            80              19        $10,594          $557        23.7%              27               6          $3,342
  72       92            67              20         $9,544          $477        29.8%              25               7          $3,339
  73      114            86              27        $12,860          $476        31.3%              28               8          $3,808
  74       93            75              26        $16,097          $619        34.6%              18               6          $3,714
  75       94            67              32        $16,583          $518        47.7%              27              12          $6,216
  76       64            47              20        $16,847          $842        42.5%              17               7          $5,894
  77       85            56              21        $15,606          $743        37.5%              29              10          $7,430
  78       48            31              12         $9,871          $822        38.7%              17               6          $4,932
  79       52            37              16        $18,452         $1,153       43.2%              15               6          $6,918
  80       41            35              20        $22,443         $1,122       57.1%               6               3          $3,366
  81       35         26                 15        $19,868         $1,324       57.6%            9                  5          $6,620
  82      348        250                109       $177,667         $1,629       43.6%           98                 42         $68,418
  83      303        190                 74       $134,086         $1,811       38.9%          113                 44         $79,684
  84      261        180                 80       $149,758         $1,871       44.4%           81                 35         $65,485


                                                                  38
                                                                                                                      Exhibit B.2
                                                                                                                      Page 3 of 8
                                   Estimated Dollar Value of Non-Responses for IL

 (1)      (2)         (3)          (4)               (5)            (6)          (7)        (8)          (9)            (10)
                     Claims    Claims with     Dollar Value of    Average    Percentage   Claims      Potential       Estimated
Fraudx   Total        with     Overpayment Overpayments           Overpay     of Claims   with No    Claims with       Value of
Score Claims Responses         Established      Established      Established Overpayment Responses    Overpay       Non-responses


  85      521            336             147       $286,597         $1,949     43.7%          185              80       $155,920
  86      468            277             134       $251,249         $1,874     48.3%          191              92       $172,408
  87      419            261             118       $237,686         $2,014     45.2%          158              71       $142,994
  88      366            214              97       $209,003         $2,154     45.3%          152              68       $146,472
  89      315            184              80       $174,899         $2,186     43.4%          131              56       $122,416
  90      500            318             127       $312,775         $2,462     39.9%          182              72       $177,264
  91      465            312             143       $359,948         $2,517     45.8%          153              70       $176,190
  92      476            276              90       $208,989         $2,322     32.6%          200           65          $150,930
  93      406            232              92       $241,282         $2,622     39.6%          174           68          $178,296
  94      623            374             141       $285,613         $2,025     37.7%          249           93          $188,325
  95      589            352             153       $371,377         $2,427     43.4%          237          103          $249,981
  96       777           451             184      $379,756          $2,063     40.7%          326          132          $272,316
  97       689           446             174      $323,715          $1,860     39.0%          243           94          $174,840
  98       632           404             183      $328,698          $1,796     45.2%          228          103          $184,988
  99     3,585         1,922             601     $1,046,462         $1,741     31.2%        1,663          519          $903,579
Total 17,747          11,206         4,185      $6,659,4131         $1,591                  6,541        2,404         $4,116,964




                 1
                  The totals for columns 4 and 5 do not foot because we included in the totals, but not in the line
         items, two overpayments for which we could not determine whether responses to the wage requests
         were received. These two overpayments were for Fraudx score 89 and totaled $282.

                                                                   39
                                                                                                               Exhibit B.2
                                                                                                               Page 4 of 8
                               Estimated Dollar Value of Non-Responses for NJ

 (1)    (2)     (3)            (4)               (5)           (6)         (7)        (8)           (9)          (10)
               Claims      Claims with     Dollar Value of   Average   Percentage   Claims       Potential     Estimated
Fraudx Total    with   Overpayment Overpayments  Overpay     of Claims   with No Claims with Value of
Score Claims Responses Established  Established Established Overpayment Responses Overpay Non-responses


   1     42           39              17         $7,703         $453     43.5%               3             1         $453
   2      5            5               3           $649         $216     60.0%               0             0            $0
   3      2            1               0             $0           $0      0.0%               1             0            $0
   4     11            8               2           $941         $470     25.0%               3             0            $0
   5      6            6               1           $407         $407     16.6%               0             0            $0
   6      9            5               0             $0           $0      0.0%               4             0           $0
   7     16           12               3         $3,153       $1,051     25.0%               4             1       $1,051
   8     22           16               6         $1,967        $327      37.5%               6             2        $654
   9     19           15               4          $514         $128      26.6%               4             1        $128
  10     26           20               7         $2,461         $351     35.0%               6             2         $702
  11     24           21               6         $1,167         $194     28.5%               3             0           $0
  12     21           14               5          $745          $149     35.7%               7             2         $298
  13     32           24              11         $3,272         $297     45.8%               8             3         $891
  14     41           33               8         $1,583         $197     24.2%               8             1        $197
  15     36           31               6         $1,105         $184     19.3%               5             0           $0
  16     34           27               7         $1,488         $212     25.9%               7             1        $212
  17     57           40              12         $5,365         $447     30.0%              17             5       $2,235
  18     44           36               6         $3,089         $514     16.6%               8             1        $514
  19     68           54              19         $7,353         $387     35.1%              14             4       $1,548
  20     58           46              10         $1,610         $161     21.7%              12             2        $322
  21     96           75              20         $7,667         $383     26.6%              21             5       $1,915
  22    117        95                 34         $9,162         $269     35.7%              22             7       $1,883
  23    131       102                 32         $9,102         $284     31.3%              29             9       $2,556
  24    125        95                 27        $12,772         $473     28.4%              30             8       $3,784
  25    125        94                 31        $15,299         $493     32.9%              31            10       $4,930
  26    103        75                 31         $6,810         $219     41.3%              28            11       $2,409
  27     81           65              22         $6,159         $279     33.8%              16             5       $1,395
  28     78           64              24         $8,121         $338     37.5%              14             5       $1,690
  29     53           35              10         $5,395         $539     28.5%              18             5       $2,695
  30     41           28               9         $7,987         $887     32.1%              13             4       $3,548
  31     30           27               9         $5,581         $620     33.3%               3             0           $0
  32     31           26              11         $5,467         $497     42.3%               5             2         $994
  33     19           17               7         $2,698         $385     41.1%               2             0           $0
  34     16           14               8         $3,700         $462     57.1%               2             1         $462
  35     14        10                  3         $1,532         $510     30.0%            4                1        $510
  36    421       331                104        $80,690         $775     31.4%           90               28      $21,700
  37    331       260                 83        $52,683         $634     31.9%           71               22      $13,948
  38    677       537                193       $112,642         $583     35.9%          140               50      $29,150
  39     541      432                139       $102,167         $735     32.1%          109               34     $24,990
  40   1,197      913                304       $222,732         $732     33.2%          284               94     $68,808


                                                              40
                                                                           Exhibit B.2
                                                                           Page 4 of 8
                   Estimated Dollar Value of Non-Responses for NJ

41   1,003   781     280     $188,538     $673     35.8%        222   79      $53,167




                                        41
                                                                                                               Exhibit B.2
                                                                                                               Page 5 of 8
                               Estimated Dollar Value of Non-Responses for NJ

 (1)    (2)     (3)            (4)               (5)           (6)         (7)        (8)           (9)          (10)
               Claims      Claims with     Dollar Value of   Average   Percentage   Claims       Potential     Estimated
Fraudx Total    with   Overpayment Overpayments  Overpay     of Claims   with No Claims with Value of
Score Claims Responses Established  Established Established Overpayment Responses Overpay Non-responses


  42    858       664                235       $171,578         $730     35.3%          194               68      $49,640
  43    722       562                181       $162,762         $899     32.2%          160               51      $45,849
  44    655       523                181       $162,608         $898     34.6%          132               45      $40,410
  45    622       504                177       $135,906         $767     35.1%          118               41      $31,447
  46    564       455                163       $133,303         $817     35.8%          109               39      $31,863
  47    472       380                126       $111,153         $882     33.1%           92               30      $26,460
  48    460       375                127        $91,112         $717     33.8%           85               28      $20,076
  49   6,516     5,118          1,490        $1,007,839         $676     29.1%        1,398           406        $274,456
  50      21        18             10            $7,950         $795     55.5%            3             1           $795
  63       3         0              0                $0           $0      0.0%            3             0              $0
  64       5         4              2             $303          $151     50.0%            1             0              $0
  65     13           12               5         $3,062         $612     41.6%               1             0            $0
  66     11            9               1          $225          $225     11.1%               2             0            $0
  67     18           14               3          $537          $179     21.4%               4             0            $0
  68     16           11               2          $823          $411     18.1%               5             0            $0
  69     28           20               5         $2,189         $437     25.0%               8             2        $874
  70     13            9               2          $753          $376     22.2%               4             0           $0
  71     42           29               9         $5,798         $644     31.0%              13             4       $2,576
  72     31           24               7         $2,275         $325     29.1%               7             2        $650
  73     66           51              17        $13,316         $783     33.3%              15             4       $3,132
  74     66           55              13         $3,960         $304     23.6%              11             2        $608
  75     76           67              23        $14,346         $623     34.3%               9             3       $1,869
  76     51           42              16         $9,607         $600     38.0%               9             3       $1,800
  77   1,373     1,106               405       $262,426        $647      36.6%          267            97         $62,759
  78   2,170     1,719               513       $397,365        $774      29.8%          451           134        $103,716
  79   2,964     2,331               795       $624,984        $786      34.1%          633           215        $168,990
  80   3,295     2,542               847       $810,185        $956      33.3%          753           250        $239,000
  81   2,442     1,917               679       $834,463       $1,228     35.4%          525           185        $227,180
  82   2,066     1,574               550       $605,632       $1,101     34.9%          492           171        $188,271
  83   1,646     1,241               404       $548,450       $1,357     32.5%          405           131        $177,767
  84   1,414     1,070               340       $477,323       $1,403     31.7%          344           109        $152,927
  85   1,222       900               301       $409,058       $1,358     33.4%          322           107        $145,306
  86   1,012      754                216       $324,118       $1,500     28.6%          258               73     $109,500
  87     910      663                204       $317,145       $1,554     30.7%          247               75     $116,550
  88     821      601                172       $378,161       $2,198     28.6%          220               62     $136,276
  89     765      557                164       $329,244       $2,007     29.4%          208               61     $122,427
  90    662       494                120       $222,038       $1,850     24.2%          168               40      $74,000
  91    671       459                117       $164,876       $1,409     25.4%          212               53      $74,677
  92    598       420                 94       $179,150       $1,905     22.3%          178               39      $74,295
  93    590       420                100       $176,956       $1,769     23.8%          170               40      $70,760


                                                              42
                                                                         Exhibit B.2
                                                                         Page 5 of 8
                 Estimated Dollar Value of Non-Responses for NJ

94   553   377      92     $155,988    $1,695    24.4%        176   42     $71,190




                                      43
                                                                                                            Exhibit B.2
                                                                                                            Page 6 of 8
                             Estimated Dollar Value of Non-Responses for NJ

 (1)    (2)     (3)          (4)               (5)           (6)          (7)        (8)         (9)          (10)
               Claims    Claims with     Dollar Value of   Average    Percentage   Claims     Potential     Estimated
Fraudx Total    with   Overpayment Overpayments  Overpay     of Claims   with No Claims with Value of
Score Claims Responses Established  Established Established Overpayment Responses Overpay Non-responses


  95    497       364              76        $138,256       $1,819      20.8%          133             27      $49,113
  96    491       338              63        $121,330       $1,925      18.6%          153             28      $53,900
  97    436       307               64       $123,168       $1,924      20.8%          129          26         $50,024
  98    412       276               56        $79,266       $1,415      20.2%          136          27         $38,205
  99   5,163     3,326             561       $667,543       $1,189      16.8%         1,837        308        $366,212
Total 49,305    37,231       11,242       $11,300,006        $1,005                 12,074       3,435       $3,655,289




                                                            44
                                                                                                                   Exhibit B.2
                                                                                                                   Page 7 of 8
                                  Estimated Dollar Value of Non-Responses for KY

 (1)    (2)      (3)             (4)           (5)           (6)          (7)        (8)            (9)              (10)
                Claims       Claims with Dollar Value of   Average    Percentage   Claims        Potential         Estimated
Fraudx Total    with   Overpayment Overpayments Overpay     of Claims   with No  Claims with                        Value of
Score Claims Responses Established Established Established Overpayment Responses  Overpay                        Non-responses


   27    819           498              86      $14,116        $164     17.2%              321             55           $9,020
   28    619           394              65      $10,161        $156     16.4%              225             36           $5,616
   29    506           309              53      $11,885        $224     17.1%              197             33           $7,392
   30    438           235              43       $5,224        $121     18.2%              203             36           $4,356
   31    297           169              27       $5,946        $220     15.9%              128             20           $4,400
   32    218           150              19       $4,212        $221     12.6%               68              8           $1,768
   33    213           146              23       $1,844         $80     15.7%               67             10            $800
   34    461           311              63      $11,388        $180     20.2%              150             30           $5,400
   35    324           229              40       $6,544        $163     17.4%               95             16           $2,608
   36    313           204              48       $6,236        $129     23.5%              109             25           $3,225
   37    255           180              21       $4,618        $219     11.6%               75              8           $1,752
   38    198           133              27       $4,505        $166     20.3%               65             13           $2,158
   39    180           111              15       $2,987        $199     13.5%               69              9           $1,791
   40    150            85              12       $1,583        $131     14.1%               65              9           $1,179
   41    145            94              13       $1,855        $142     13.8%               51              7            $994
   42    141            89              19       $1,767         $93     21.3%               52             11           $1,023
   43     52            42               7        $582          $83     16.6%               10              1              $83
   44    138            70               7        $739         $105     10.0%               68               6              $630
   45     98            54               7       $1,190        $170     12.9%               44               5              $850
   46     85            49               9       $1,211        $134     18.3%               36               6              $804
   47     72            42               3        $846         $282     7.1%                30               2              $564
   48     67            48               7       $1,028        $146     14.5%               19              2            $292
   49    545           375              61       $9,866        $161     16.2%              170             27           $4,347
   58      2             2               1           $3          $3     50.0%                0              0               $0
   59     50            38               7        $999         $142     18.4%               12              2            $284
   60    129            95              18       $1,838        $102     18.9%               34              6            $612
   61    235           181              37       $4,590        $124     20.4%               54             11           $1,364
   62    332           254              49      $11,788        $240     19.2%               78             14           $3,360
   63    518           406              86      $14,751        $171     21.1%              112             23           $3,933
   64    682           523              98      $16,273        $166     18.7%              159             29           $4,814
   65     857       640                113      $15,257        $135     17.6%              217             38           $5,130
   66   1,156       883                180      $29,304        $162     20.3%              273             55           $8,910
   67   1,535     1,181                260      $51,279        $197     22.0%              354             77          $15,169
   68   1,858     1,420                306      $67,609        $220     21.5%              438             94          $20,680
   69   2,350     1,807                393     $72,260         $183     21.7%              543            117          $21,411
   70   2,910     2,239                469     $96,646         $206     20.9%              671            140          $28,840
   71   3,503     2,661                551    $134,119         $243     20.7%              842            174          $42,282
   72   3,986     3,084                619    $135,849         $219     20.0%              902            180          $39,420
   73   4,180     3,197                652    $149,788         $229     20.3%           983               199          $45,571
   74   4,337     3,288                649    $129,104         $198     19.7%         1,049               206          $40,788
   75   4,043     3,016                585    $165,180         $282     19.3%         1,027               198          $55,836



                                                              45
                                                                             Exhibit B.2
                                                                             Page 7 of 8
                     Estimated Dollar Value of Non-Responses for KY

76   3,401   2,469     490    $129,540      $264   19.8%         932   184       $48,576




                                          46
                                                                                                                           Exhibit B.2
                                                                                                                           Page 8 of 8
                                        Estimated Dollar Value of Non-Responses for KY

  (1)     (2)          (3)             (4)           (5)           (6)            (7)        (8)            (9)             (10)
                  Claims           Claims with Dollar Value of   Average     Percentage    Claims        Potential        Estimated
Fraudx Total    with   Overpayment Overpayments Overpay     of Claims   with No  Claims with                               Value of
Score Claims Responses Established Established Established Overpayment Responses  Overpay                               Non-responses

    77    2,898         2,115                474    $178,761          $377       22.4%             783            175         $65,975
    78    2,311         1,624                360    $155,493          $431       22.1%             687            151         $65,081
    79    1,809         1,195                268    $150,018          $559       22.4%             614            137         $76,583
    80    1,393           892                209    $101,398          $485       23.4%             501            117         $56,745
    81    1,129           726                178     $89,273          $501       24.5%             403             98         $49,098
    82      908           603                152     $82,878          $545       25.2%             305             76         $41,420
    83     685               427              90      $51,901         $576       21.0%             258             54         $31,104
    84     618               390             100      $53,012         $530       25.6%             228             58         $30,740
    85     494               310              61      $40,274         $660       19.6%             184             36         $23,760
    86     414               268              60      $43,701         $728       22.3%             146             32         $23,296
    87     341               231              48      $40,193        $837        20.7%             110             22         $18,414
    88     297               193              35      $35,838       $1,023       18.1%             104             18         $18,414
    89     306               181              34      $20,320        $597        18.7%             125             23         $13,731
    90     212               138              36      $28,827        $800        26.0%              74             19         $15,200
    91     191               122              26      $23,888         $918       21.3%              69             14         $12,852
    92     184               109              26      $14,625         $562       23.8%              75             17          $9,554
    93     128                59              14       $8,024         $573       23.7%              69             16          $9,168
    94     129                62               8       $5,201         $650       12.9%              67              8          $5,200
    95     110                67              16       $3,325         $207       23.8%              43             10          $2,070
    96      98                55              10       $9,199         $919       18.1%              43              7          $6,433
    97      68                41               6       $3,038         $506       14.6%              27              3          $1,518
    98      70                36               7       $3,300         $471       19.4%              34              6          $2,826
    99     721               392              52      $38,392         $738       13.2%             329             43         $31,734
 Total 57,912         41,637            8,508      $2,517,389        $296                    16,275         3,262          $1,058,948

Explanation of columns:

         Column 1 -           The Fraudx score. Fraudx scores range from 01 to 99.

         Column 2 -           The total number of claims selected for audit by the SESA.

         Column 3 -           The number of responses received by the SESA from employers.

         Column 4 -           The number of overpayment determinations made from these responses.

         Column 5 -           The dollar value of the overpayment determinations.

         Column 6 -           The average dollar value of the overpayment determinations (rounded down).

         Column 7 -           The percentage of responses which resulted in an overpayment determination (rounded down).

         Column 8 -           The number of non-responses.

         Column 9 -           The estimated number of these non-responses which will result in an overpayment (rounded down).

         Column 10 -          The estimated dollar value of the non-responses.


                                                                    47
                                                                                         Exhibit C.1



                        Number of Wage Requests Sent to Employers
           During the Four Most Recently Completed Quarters in Our Audit Period
                           Employers’ Responses and Non-Responses
                                    to the Wage Requests




                         Responses                 Non-Responses                Total
      State
                                                                            Wage Requests
                      No.        Percentage        No.         Percentage

Illinois                16,056       52.23%         14,683         47.77%            30,739

New Jersey              56,520       53.65%         48,824         46.35%           105,344

Florida                127,617       34.34%        243,964         65.66%           371,581

Maryland                 2,451       82.50%              520       17.50%             2,971

Kentucky                54,230       61.58%         33,834         38.42%            88,064

Texas                   50,233       58.51%         35,621         41.49%            85,854

California           1,300,256       74.36%        448,347         25.64%         1,748,603

All States Total     1,607,363       66.06%        825,793         33.94%         2,433,156




                                              49
                                                                                       Exhibit C.2




                        Number of Claims Selected for Audit by States
                       During Their Four Most Recently Completed Quarters




   States                    Qtr/1          Qtr/2          Qtr/3     Qtr/4     Total

   Illinois                    4,122          5,139          4,248     4,238      17,747
   New Jersey                 12,571         12,040         12,335    12,359      49,305
   Florida                    70,937         77,958         70,956    77,502     297,353
   Maryland                      500            500            500     1,000       2,500
   Kentucky                   12,960         10,793         19,663    14,496      57,912
   Texas                      27,597         16,194         12,430    12,393      68,614
   California (See Note)                                                       1,010,240

   All States Total                                                            1,503,671



Note: Quarterly claim numbers for California were not available.




                                                    50
                                                                                                  Exhibit C.3




                                  Unique Employers
                      From Whom One or More Claimants Received Wages
                              During the Crossmatch Quarter




                       Four Most Recently Completed Quarters                       Average
       State
                                                                               Unique Employers
                   Quarter 1      Quarter 2      Quarter 3      Quarter 4

Illinois                  3,953          4,642          3,671          5,093              4,340

New Jersey                7,452          7,001          6,886          6,984              7,081

Florida                  24,389         27,789         26,992        27,263              26,608

Maryland                    522            468            486           827                 576

Kentucky                  6,681          3,461          5,226          2,879              4,562

Texas                    13,814         19,812          7,522          7,598             12,187

California              102,314         99,584         97,732        94,283              98,478

All States Total       159,125        162,757         148,515      144,927             153,831


Note: Average was computed by dividing the total number of unique employers by 4.
      Differences in totals are due to rounding.




                                                 51
                                                                                                Exhibit C.4

 Wage Requests Sent to Employers in Three BARTS States, Number and Percentage,
                           Returned and Not Returned
                           Summary of BARTS states
Employers' Category                             Employer Responded
                            Number                   Percentage                    Percentage
                          No        Yes             No %      Yes %      Total       Total


Use Service Providers    27,238   6,972             79.62%     20.38% 34,210           15.26%
No Service Providers     70,103 119,834             36.91%     63.09% 189,937          84.74%


Grand Total              97,341 126,806             43.43%     56.57% 224,147         100.00%


                                         Illinois
Employers' Category                                 Employer Responded
                               Number                 Percentage                   Percentage
                          No        Yes             No %      Yes %      Total        Total

Use Service Providers      5,428       580           90.35%     9.65%      6,008       19.55%
No Service Providers       9,255    15,476           37.42%    62.58%     24,731       80.45%


Grand Total               14,683    16,056           47.77%    52.23%     30,739      100.00%


                                    New Jersey
Employers' Category                                 Employer Responded
                               Number                 Percentage                   Percentage
                          No        Yes             No %      Yes %      Total        Total

Use Service Providers     13,118        3,278        80.01%    19.99%     16,396       15.56%
No Service Providers      35,706    53,242           40.14%    59.86%     88,948       84.44%


Grand Total               48,824    56,520           46.35%    53.65%    105,344      100.00%


                                        Kentucky
Employers' Category                                 Employer Responded
                            Number                    Percentage                   Percentage
                          No        Yes             No %      Yes %      Total        Total


Use Service Providers      8,692     3,114           73.62%    26.38%     11,806       13.41%
No Service Providers      25,142    51,116           32.97%    67.03%     76,258       86.59%


Grand Total               33,834    54,230           38.42%    61.58%     88,064      100.00%


                                           52
                                                                                          Exhibit C.4 a



   Wage Requests Sent to Employers in California, Number and Percentage,
                        Returned and Not Returned




                                    California
Employers' Category                           Employer Responded
                                                  Percent                      Percentage
                         No        Yes         No %      Yes %      Total         Total

Use Service Providers    11,481     19,615      36.92%   63.08%      31,096         1.78%
No Service Providers    436,866   1,280,641     25.44%   74.56%    1,717,507       98.22%


Grand Total             448,347   1,300,256     25.64%   74.36%    1,748,603      100.00%




                                          53
                                                                          Exhibit C.5
                                                                          Page 1 of 4
     Employers by Industries Who were Sent Multiple Wage Requests
                            and Returned None
          California, Illinois, New Jersey, Kentucky and Texas

                                     Airlines
                                                                    Number of Wage
     State   Employer Number                    Name of Employer       Requests
1.    IL        1805386         Official Airline Guides, Inc.               49
2.    IL          60914         United Air Lines Inc.                      120
3.    NJ       51822001         Continental Airlines                        70
4.    TX     00-008151-5        American Airlines Inc.                     142
5.    TX     00-757099-6        Continental Airlines Inc.                  164


                           Banks and Financial Organizations

                                                                    Number of Wage
     State   Employer Number           Name of Employer                Requests
1.    CA       2357632       Chase Manhattan Mortgage Corporation            59
2.    IL     0000043365         1st Nat'l Bank                             177
3.    IL     0001090735         Household Bank FSB                          32
4.    IL     0001916648         Household Credit Services                   38
5.    IL     0000073614         Lake Shore National Bank                    40
6.    IL     0000108443         NBD Bank (Illinois)                         16
7.    NJ        3665100         New Jersey Saving                           26
8.    NJ       32181100         United Jersey Bank                          88


                             Communication Organizations

                                                                     Number of
     State   Employer Number          Name of Employer              Wage Requests
1.    IL      0001064511     AT&T Communication Inc.                      234
2.    IL      0000061420        American Tele & Tele (AT&T)                185
3.    IL      0000259396        Digital Equipment Corp % ADP                50
4.    IL      0000060270        Illinois Bell                              169
5.    IL      0000010185        Motorola Inc.                               34
6.    NJ        58503600        Bell Communications                        106
7.    NJ           11100        AT&T Global                                 37
8.    TX      01-072726-0       AT&T Communications Inc.                   182
9.    TX      01-676205-9       Reliance Comm/Tech Corporation              52



                                         54
                                                                           Exhibit C.5
                                                                           Page 2 of 4
      Employers by Industries Who were Sent Multiple Wage Requests
                             and Returned None
           California, Illinois, New Jersey, Kentucky and Texas


                     Government and Publicly Funded Agencies
                                                                     Number of Wage
      State   Employer Number                Name of Employer          Requests
 1.   CA          9440480       County of Fresno                            355
 2.   CA          9440083       City of Los Angles                         1,112
 3.   CA          9320440       County of Los Angles                        692
 4.   CA          9440503       Los Angles County                           522
 5.   CA          9440258       City of Oakland                             368
 6.   CA          9350503       University of California Berkley            436
 7.    IL      0000809006       Met Pier & Expo Authority                    61
 8.    IL      0000806831       Chicago Transit Authority                    18
 9.    IL      0000808548       City College Chicago                         39
10.    IL      0000449277       Northwestern University                      14
11.   KY           998803       Air Force                                    71
12.   KY           998410       Dept of the Treasury                         81
13.   KY           998802       Navy                                        154
14.   KY           910021       University of Kentucky                      131
15.    NJ        43996700       Trenton City Board of Education              29




                                       55
                                                                           Exhibit C.5
                                                                           Page 3 of 4
      Employers by Industries Who were Sent Multiple Wage Requests
                             and Returned None
           California, Illinois, New Jersey, Kentucky and Texas


                             Retail and Food Businesses

                                                                       Number of
      State   Employer Number            Name of Employer             Wage Requests
 1.    CA         2855761     Kay-Bee Toy & Hobby Shops Inc.                  61
 2.   CA            23596      Sees Candies Inc.                             810
 3.   CA          2834932      Service Merchandise Co. Inc.                  426
 4.    IL      0000060317      Jewel Food Stores Inc.                         35
 5.    IL      0001063245      K Mart Builders Square, Inc.% K Mart           16
 6.    IL      0000061052      K Mart Corp, Attn. Payroll Tax Div.            45
 7.    IL      0000792736      Marshall Field Co.                             59
 8.    IL      0000060181      Montgomery Ward & Co. Inc.                     35
 9.    IL      0000060576      Sears GRP. Dept 707-1 E2 222B                  64
10.    IL      0000010105      Spiegel Inc..                                 118
11.    IL      0000514252      Target Stores                                  27
12.    IL      0000061461      Walgreen Co. % Ris Dimitiou12                  12
13.   KY          387454B      Consolidated Stores Interntl Corp.             33
14.   KY            3937C      Hills Department Store Company                 61
15.   KY             3464      K Mart Corporation                             75
16.   KY           328300      Kay-Bee Toy & Hobby Shops Inc.                 28
17.   KY             1135      Sears Roebuck & Co.                           116
18.   KY             3571      The Kroger Co.                                 69
19.   KY           492474      Wal-Mart Associates Inc.                      196
20.   KY           315242      Wal-Mart Stores Inc.                          228
21.    NJ        85758401      The Caldor                                    110
22.    NJ        36990500      ACME Markets Inc.                              45
23.    NJ        85625601      Bradlees Stores Inc.                           73
24.    NJ        80685200      May Department Stores                          63
25.    NJ        15866000      New Linden Price Rite                          28
26.    NJ           83601      Sears Roebuck & Company                       135
27.    NJ        69543400      Staples Inc.                                   33
28.    NJ        83552500      Tops Appliance City                            38
29.    NJ        85260900      Toys R Us Inc.                                119
30.    TX      00-132949-9     The Kroger Co.                                123
31.    TX      00-547279-2     Wal-Mart Stores Inc.                          634
32.    TX      00-163818-1     K Mart Corporation                            217




                                      56
                                                                             Exhibit C.5
                                                                             Page 4 of 4
      Employers by Industries Who were Sent Multiple Wage Requests
                             and Returned None
           California, Illinois, New Jersey, Kentucky and Texas



                             Temporary Employment Agencies

                                                                       Number of Wage
      State   Employer Number                   Name of Employer         Requests
 1.   CA          3850407        Cencast Services, LP                        3,400
 2.   CA          3850429        EP Management Services, LP                 12,662
 3.   CA          3850436        EP Talent Services, LP                      5,767
 4.   CA          4279491        EP Commproduction Services, LP              1,376
 5.   CA          4279868        EP Comm Talent Services, LP                  326
 6.   CA          2820475        TSU Staffing                                 604
 7.   CA          3141037        Interim Personnel                           3,311
 8.   CA          5145266        Jose M. Gomez Farm Labor Contractor          344
 9.    IL      0001228196        Manpower International Inc.                   82
10.    IL      0000519831        Adia Service Inc.                             77
11.    IL      0001803286        Norrel Temporary Serv.                        31
12.   KY           78496B        Manpower of Indiana                          374
13.   KY           478686        Norrell Services Inc.                         74
14.    NJ        56840800        Norrell Services Inc.                         39
15.    NJ        73842000        Norrell Temporary                             63
16.    NJ        39385100        Adia Srvs Inc. T/A                           139
17.    NJ        64392800        Marine Personnel                              34
18.    TX      00-614688-0       Today’s Temporary Inc.                       112
19.    TX      00-409950-8       Adia Services Inc.                           310
20.    TX      01-078325-9       Express Temporary Services Inc.              112




                                        57
                                                                                                   Exhibit D
                                                                                                   Page 1 of 6

                          Summary Results of the Employer Questionnaires1

Questions are restated. Employer responses have been added.

1. Do you have any policies or procedures regarding responding to wage requests from the various State
   Employment Security agencies?

   Employer response:          60 percent responded “yes”
                                      40 percent responded “no”

2. Are you aware that:

   (a) State laws require employers to respond to the wage requests?

       Employer response:              65 percent responded “yes”
                                       35 percent responded “no”

   (b) If an overpayment is established, the liable employer’s account will be credited for the purpose of
       experience rating and tax rate computations?

       Employer response:              60 percent responded “yes”
                                       35 percent responded “no”
                                        5 percent did not respond.

   (c) Providing this information helps protect the integrity of the Unemployment Insurance (UI) program?

       Employer response:              80 percent responded “yes”
                                       20 percent responded “no”

   (d) Providing this information could help reduce the UI tax assessed employers?

       Employer response:              70 percent responded “yes”
                                       30 percent responded “no”




          1
           Our analysis of the information from employers leads us to believe that employers do not
   always have an accurate understanding of the UI benefit/wage crossmatch and the process for detecting
   overpayments.

                                                     58
                                                                                                   Exhibit D
                                                                                                   Page 2 of 6

                           Summary Results of the Employer Questionnaires

3. Have you directed the various states to send the wage request forms and other UI data requests to a
   service provider?

    Employer response:          60 percent responded “yes”
                                       40 percent responded “no”

4. If the wage requests forms are sent to a service provider, are you aware that the service provider is not
   completing and returning them to the states?

    Employer response:          15 percent responded “yes”
                                       35 percent responded “no”
                                       50 percent responded “not applicable”

    Note: One employer who responded yes said that the service provider was able to detect fraud issues
          through their charge verification system.


5. For the wage requests received by your company (or by a service provider), what was the reason for not
   responding? (please answer all that apply)

    Note: For 40 percent of the employers, answers 5(a) to 5(e) did not apply. Instead they provided
          comments shown in 5(f). Between 10 and 20 percent did not answer the question.

    (a) There was no penalty.

        Employer response:               10 percent responded “yes”
                                         30 percent responded “no”

    (b) There was no monetary benefit.

        Employer response:               15 percent responded “yes”
                                         30 percent responded “no”

    (c) We decided that no overpayment was involved.

        Employer response:               20 percent responded “yes”
                                         30 percent responded “no”




                                                      59
                                                                                                    Exhibit D
                                                                                                    Page 3 of 6

                           Summary Results of the Employer Questionnaires


   (d) Instructions were not clear and understandable.

       Employer response:              10 percent responded “yes”
                                       30 percent responded “no”

   (e) Information requested was not readily available.

       Employer response:              30 percent responded “yes”
                                       15 percent responded “no”

   (f) Other, please explain.

       We received the following reasons for not responding:

       -- We were not aware that our service provider was receiving the wage request.

       -- Receiving this questionnaire is the first indication that we were not responding to every request.

       -- Almost 90 percent of our employees were laid-off. We are not disputing the claims.

       -- Daily wages are not available. Employees are paid biweekly or monthly.

       -- We were not aware of any wage requests that were not returned.

       -- The service provider already performs the same function these would catch.

       -- We did not know that the wage request had to be filled out.

6. Do you (or your service provider) believe the wage request forms and instructions are clear and
   understandable?

   Employer response:           60 percent responded “yes”
                                       35 percent responded “no opinion”
                                        5 percent did not respond.




                                                      60
                                                                                                    Exhibit D
                                                                                                    Page 4 of 6

                           Summary Results of the Employer Questionnaires


7. Do you (or your service provider) have the information requested by the wage request forms readily
   available to send to the various states?

    Employer response:          30 percent responded “yes”
                                       60 percent responded “no”
                                       10 percent did not respond.

8. Would you (or your service provider) prefer receiving multiple wage request forms in a single package?

    Employer response:          55 percent responded “yes”
                                        5 percent responded “no”
                                       40 percent responded “no opinion”

9. Would you (or your service provider) prefer receiving the wage request forms in an electronic format?

    Employer response:          30 percent responded “yes”
                                       35 percent responded “no”
                                       35 percent responded “no opinion”

10. Would you (or your service provider) prefer responding in an electronic or telephone format?

    Electronic -
        Employer response:              25 percent responded “yes”
                                        40 percent responded “no”
                                        35 percent responded “no opinion”

    Telephone -
        Employer response:              10 percent responded “yes”
                                        35 percent responded “no”
                                        45 percent responded “no opinion”
                                        10 percent did not respond.

11. Have you (or your service provider) ever contacted the various states to discuss an alternate
    way of receiving or responding to the wage requests?

    Employer response:                  95 percent responded “no”
                                         5 percent responded “no opinion”


                                                      61
                                                                                                  Exhibit D
                                                                                                  Page 5 of 6
                          Summary Results of the Employer Questionnaires

12. How would you rate the wage request process for detecting UI Benefit overpayments?

   Employer response:                  10 percent responded “good”
                                       20 percent responded “fair”
                                       60 percent responded “no opinion”
                                       10 percent did not respond

13. Do you have any suggestions for improving the wage request process for detecting UI Benefit
    overpayments?

   Employer response:                  25 percent responded “yes”
                                       75 percent responded “no”

   Employers who responded yes provided the following suggestions:

       -- Simplify the form by eliminating:

           days worked, rate of pay, and reason for separation. Only require this information if you believe
           fraud was detected in the audit.

           the carbon type form. It is bulky and requires extra time to open.

       -- Large employer state level account representatives should contact service providers to review
          handling procedures and internal audit controls to determine if the process provides the quality
          controls the state needs.

       -- The states should request wage data for the specific quarter claimant received UI benefits and
          specify the weeks benefits were paid.

       -- Don't send wage request forms where it is known Benefit charges are monitored. Remove
          duplication for both the states and the employers.

14. How long does it take on average to process a wage request?

   Employer response:                  20 percent responded “less than 1 hour”
                                       10 percent responded “1 to 2 hours”
                                        5 percent responded “3 to 4 hours”
                                        5 percent responded “over 4 hours”
                                       60 percent responded “do not know”

                                                     62
                                                                                               Exhibit D
                                                                                               Page 6 of 6

                          Summary Results of the Employer Questionnaires


15. Rather than receiving selected UI claimant wage requests, would you prefer to provide weekly wage
    data for all employees when you provide states the quarterly wage information?

   Employer response:                  5 percent responded “yes”
                                      60 percent responded “no”
                                      30 percent responded “no opinion”
                                       5 percent did not respond.

16. Were the wage request forms sent to the proper person and address?

   Employer response:                 70 percent responded “yes
                                      20 percent responded “no”
                                      10 percent did not respond.




                                                    63
                                                                                              Appendix 1
                                                                                              Page 1 of 8
                         Status of New Hire Detection in The States Audited

                                                 Florida

New hire reporting under state law - Effective January 1995, Florida employers with 250 or more
employees have been required to report all new hires or rehires to the Florida Department of Labor and
Employment Security, Division of Unemployment Compensation, Bureau of Tax. The Division used their
own list of employers who pay taxes to determine employers who had 250 or more employees.
Employers with 250 or more employees were sent a letter prior to January 1995 informing them of their
responsibility to comply with new hire reporting requirements. Approximately 1,000,000 new hires or
rehires a year have been reported.

Although employers with less than 250 employees were not required to report new hires or rehires, efforts
were made to encourage these employers to report. For example, a pilot project was established to
comprise a representative sample of employers with less than 250 employees, who volunteered to report
their new hires. Approximately 2,000 employers participated in that project.

Employers required to report under Florida’s law or employers participating in the pilot project were
required to report new hires or rehires to the Division of Unemployment Compensation (DUC) at the end
of the first pay period following employment or re-employment; or in the case of those employers with pay
periods of less than 14 days, the employers were to submit the report within 14 days of employing or re-
employing the employees.

Employers were required to report the following information:

    - the Florida employer account number; and
    - individual employee data:
         a. social security number;
         b. name of employee; and
         c. the first day worked.

There were no assessments of fines if required employers did not report new hires. However, it really did
not matter since there is no system in place currently to monitor if required employers reported new hires.


How new hire information is used - The BPC New Hire unit takes the new hires reported to the Bureau
of Tax and matches it against current benefit files daily to detect possible overpayments




                                                    64
                                                                                           Appendix 1
                                                                                           Page 2 of 8
                         Status of New Hire Detection in the States Audited

Florida officials indicated that early detection has had a positive effect on minimizing and recovering
overpayments. They believe that the new hire system has been useful and will eventually be more effective
than the benefit/wage crossmatch once all Florida employers are required to report new hires beginning
October 1, 1998. We were informed employers with 250 or more employees make up only 1 percent of
the employers in Florida and that 80 percent of the employers have 5 or fewer employees.

New hire method benefits - During our interview of Florida officials, we were told the new hire detection
method is more effective than the benefit/wage crossmatch for these reasons:

   S   The match up of new hire data to benefits paid is much more timely. Because the intervention is
       much earlier, the overpayments are smaller and they are easier to recover.

   S   The new hire information can be used to determine if there is a conflict between the new hire work
       start date and the benefit weeks, as a result employers do not need to be contacted unnecessarily.
       Officials felt the benefit/wage crossmatch was inefficient because 40 to 50 percent of wage
       requests sent out and returned are cleared and not assigned for investigation because there is no
       conflict. Also about 40 percent of the wage requests are never returned.

   S   One hundred percent contact by phone was made to employers and claimants, as necessary, when
       there was a conflict between the new hire work start date and the benefit weeks paid, to obtain the
       appropriate information and determine if there was an overpayment. They plan to continue this
       100 percent contact even though all employers in the future will be required to report new hires.

   S   In some instances, early intervention can prevent overpayment. Moreover, while a claim of a new
       hire is under review, future payments on an ongoing claim can be held until a determination is
       made.

   S   Employers and claimants seem to better understand the purpose and benefits of the new hire
       detection process than the benefit/wage crossmatch.

   S   As claimants become aware that the employer reports new hires to the UI program, a reduction of
       repeat and first time offenders will occur.




                                                   65
                                                                                                Appendix 1
                                                                                                Page 3 of 8
                          Status of New Hire Detection in the States Audited

New hire method results - As a result of new hire detection activities from February 1997 through
February 1998, Florida reported $1.3 million in overpayments, or an average of over $100,000 a month.
In addition, estimated overpayments of $400,000 were prevented from March 1997 through February
1998, or an average of about $33,000 per month. The number of benefit week payments prevented were
about 2300.

In the future, with centralized control of the new hire detection activities and because all employers will be
required to report new hires, overpayment detection and prevention should increase compared with the
statistics above. These statistics did not take into account factors which may tend to understate the new
hire method effectiveness. These are:

    S   Although the New Hire unit has been keeping statistical data since February 1997, the unit did not
        take over complete control of new hire detection activities from all 94 local offices until June
        1997.

    S   Also, for the time frame the statistics were provided, only employers with 250 or more employees
        (only 1% of employers) were required to report new hires.

New hire expectations - By October 1, 1998, the Florida Department of Revenue will maintain the State
Directory of New Hires. The reason for this is the Child Enforcement Division is in the Department of
Revenue. Moreover, the Department of Revenue’s list of employers is more extensive. The DUC will
continue keeping the directory until the Department of Revenue takes over. The PRWORA allows states
who already have a new hire reporting system in place, to meet the PRWORA new hire reporting
requirements by October 1, 1998, instead of October 1, 1997.

    State laws have been or will be revised to meet PRWORA requirements as follows:

    S   All employers will be required to report new hires.

    S   The employer FEIN, an employer telephone contact and employee address will be added as
        additional employer reporting elements.

    S   Timing requirements for electronic reporting will be adopted as required by the PRWORA.

    -- A penalty mechanism will be put in place for employers who fail to report new hires.




                                                      66
                                                                                                   Appendix 1
                                                                                                   Page 4 of 8
                           Status of New Hire Detection in the States Audited

To detect UI overpayments in the future, the New Hire unit will obtain from the Department of Revenue the
new hire/rehire data reported by the employers. They still plan to do a 100 percent follow up where there is
a conflict with the hire date and the benefit weeks paid, even though there will be a significant increase in new
hires since all employers will be required to report.

                                                     Texas

New hire reporting under state law - Since September 1, 1993, a voluntary new hire reporting system
has been in place. Texas mailed a notice to employers when the voluntary program began, and continues to
encourage Texas employers to report new hires. The Texas Attorney General’s Office has been responsible
for maintaining the new hire information and will be responsible for maintaining the State Directory of New
Hires that meets PRWORA requirements starting October 1, 1998. The Attorney General’s Office has
contracted with a vendor, BDN, to keep the State Directory of New Hires for their office. All Texas
employers will be required to report new hires. The Attorney General’s Office and BDN are planning for the
increased workload.

The employers who have been reporting voluntarily have been asked to provide the W-4 form or the
information that is on it. Beginning on October 1, 1998, all employers will be required to report new hires
and will be required to report all information required in the PRWORA. They will also be permitted to
provide additional information. Currently, there is no time limit for when a new hire is to be reported by an
employer. Beginning in October 1998 the number of days in which an employer must report a new hire will
meet PRWORA time requirements.

No fines or penalties are planned at this time although all employers will be required to report new hires after
October 1, 1998.

How new hire information is used - About every week BDN provides the Texas Workforce Commission
with a new hire tape. The new hire data is matched against current UI claims to determine if there is a conflict
between the benefit weeks and when the employee was hired. If so, BPC does an audit/investigation to
determine if an overpayment occurred. The New Hire tape is also matched against accounts receivable files
and, where there is a match, a collection letter is sent out to try to collect past overpayments.

New hire method benefits - The BPC Unit is of the opinion that the new hire detection method has the
potential to be the most effective UI detection tool. BPC plans eventually to move most of the benefit/wage
crossmatch investigation staff over to new hire detection. The benefit/wage crossmatch will be used as a
backup to the new hire detection system and to flag unreconcilable records. Texas officials estimate they will
have 7.5 million new hires per year.




                                                       67
                                                                                               Appendix 1
                                                                                               Page 5 of 8
                          Status of New Hire Detection in the States Audited

New hire method results - Since reporting new hires is voluntary until October 1, 1998, Texas has not
attempted to evaluate the effectiveness of their new hire detection results or compare it to the benefit/wage
crossmatch. No statistics were provided on the number of overpayments or the overpayment dollars as a
result of new hire detection. The benefit/wage crossmatch will remain the main detection method until the new
hire detection system goes into full gear after October 1, 1998.

New hire expectations - As of October 1, 1998, Texas will be in compliance with all PRWORA new hire
reporting requirements. We were told that Texas law is in total agreement with the new hire reporting
requirements in the PRWORA. All employers will be required to report new hires to the Attorney General’s
office through BDN. Employers will be required to report all the required information and within the required
time frame as required by the PRWORA.

The BPC unit of the Texas Workforce Commission, with all employers required to report new hires, will
receive a more comprehensive listing from BDN, which will improve the new hire detection system in place
to detect UI overpayments. They are of the opinion this will become their most effective detection method.

                                                 Kentucky

New hire reporting under state law - The Kentucy Department of Employment Services (KYDES) has
kept new hire information since October 1994. All Kentucky employers are required to report new hires and
rehires. Since October 1997 KYDES has gradually been turning over the responsibility for keeping the new
hire information to the Kentucky Division of Child Support Enforcement (KYDCSE). KYDCSE is working
on improving the new hire reporting system. They will be responsible for maintaining the State Directory of
New Hires that meets PRWORA new hire reporting requirements by October 1, 1998. They are planning to
have a contractor maintain the State Directory of New Hires. Kentucky laws are in place that are in
agreement with the PRWORA new hire reporting requirements. They even have penalties for not reporting
new hires though they have not been applied in the past.

How new hire information is used - In the past, KYDES matched the new hires to the UI files. They
indicated that employers had only a 20 percent response rate. However, they had no monitoring system in
place to know how many of the remaining 80 percent of the employers had new hires they did not report or
just had no new hires.

New hire method results - Moreover, they indicated many employers provided inaccurate data. As a result
BPC had detected few UI overpayments. In addition, many employers reported the wrong or no social
security number resulting in putting stop payment orders on the wrong UI claim. Based on these results, BPC
ceased using new hire reports as a detection method late in 1997.




                                                     68
                                                                                                 Appendix 1
                                                                                                 Page 6 of 8
                           Status of New Hire Detection in the States Audited

New hire expectations - Currently, there are no plans by the BPC unit to use the new hire detection method
in the future, but it was indicated they will reconsider its use again when KYDCSE puts the State Directory of
New Hires in place beginning October 1, 1998. We think this is a good idea and that the two agencies
should work together to get employers to report new hires and to do so accurately. The new hire method of
detecting UI overpayments has great potential if employers comply and report accurate information.

                                                 California

New hire reporting under state law - A new hire reporting system was in place prior to the PRWORA.
The California Employment Development Department (CEDD), the SESA, has maintained this system. The
new hire data has been sent to the California Department of Social Services (CDSS). The information is used
by CDSS to locate parents who are delinquent in child support payments.

Under the current reporting system only employers in 17 industries are required to report new hires.
Employees under 18, employees paid less than $300 per month and employers with 4 or fewer employees
are exempted from the reporting requirements. Employers required to report are to report the new hire or
rehire no later than 30 days from the date of hire.

How new hire information is used - Currently, the new hire data from the reporting system is not used for
UI overpayment detection. California will not start using the new hire data for overpayment detection until
July 1999.

New hire method benefits - It is anticipated that doing an earlier audit through new hire detection will
reduce benefit overpayments by as much as $9.5 million annually. The impact on how the UI benefit/wage
crossmatch and other detection methods will be carried out in the future cannot be determined at this time.

New hire expectations - Beginning July 1, 1998, all California employers are required to report new hire
information to the California New Employee Registry (State Directory of New Hires). CEDD will continue
to maintain the Directory. Marketing efforts are being made to inform employers that they are required to
report new hires and explain why the information is needed. State legislation is in place to conform with
PRWORA new hire reporting requirements. Legislation allows for the assessment of a $24 penalty for each
failure to report a new hire.

Whether they will assess penalties or not remains to be seen. In the past, they have had authority to assess a
penalty but the policy has been not to enforce the penalty violation.

As indicated, CEDD plans to use the new hire data for comparing the start of work date with UI benefit
payment records on a daily basis, beginning July 1, 1999. The comparison will allow CEDD to detect and
prevent fraudulent unemployment payments earlier. It is anticipated that doing an earlier audit through new
hire detection will reduce benefit overpayments by as much as $9.5 million annually.

                                                      69
                                                                                                 Appendix 1
                                                                                                 Page 7 of 8
                           Status of New Hire Detection in the States Audited

                                                    Illinois

New hire reporting under state law - Illinois, prior to the PRWORA, never maintained new hire
information. Our fieldwork at the Illinois Department of Employment Security (IDES), the SESA, was prior
to October 1, 1997, when the PRWORA new hire reporting requirements took effect. We were informed
that IDES would maintain the State Directory of New Hires. They indicated they planned to have the new
hire reporting system in place by October 1, 1997, and meet the PRWORA new hire reporting requirements.

New hire expectations - IDES plans to use the new hire information as a BPC tool to detect UI benefit
overpayments. Requesting Illinois employers to provide the actual date of hire will be an important feature in
its effectiveness. IDES also intends for their local offices to use the new hire information to prevent
overpayments as a part of the claims process. IDES at the time of our fieldwork had not developed a
detailed plan on how new hire detection would be carried out. They were concentrating on getting the new
hire reporting system in place. The effectiveness of new hire detection results when IDES initiates its use and
available staffing resources will dictate the extent to which it will be used.

                                                 New Jersey

New hire reporting under state law - Prior to the PRWORA, New Jersey never maintained new hire
information. Although the State Directory of New Hires was to be in place as of October 1, 1997, it has
been delayed in New Jersey. The New Jersey the Department of Human Services (NJDHS) is responsible
for maintaining the State New Hire Directory. We were informed by New Jersey Department of Labor
(NJDOL) officials that NJDHS had contracted out this function. Instruction pamphlets were to be mailed to
New Jersey employers in June 1998 informing them that they must report all new hires as of May 1, 1998,
and forward. The pamphlet covered the reporting requirements and how the information would be used.
Apparently New Jersey plans to meet PRWORA requirements though they were not operational as of
October 1, 1997.

Employers are not being required to provide the work start date because it is not required by the PRWORA.

New hire expectations - NJDOL, the SESA, plans to use the new hire information as a detection tool in the
future. However, at this time no specific procedures have been put in place to form a new hire detection
system. Since the employers will not be required to provide the work start date, it will require additional
work and resources to get the actual date needed to determine whether a potential overpayment occurred.




                                                      70
                                                                                               Appendix 1
                                                                                               Page 8 of 8
                          Status of New Hire Detection in the States Audited

                                                 Maryland

New hire reporting under state law - Prior to the PRWORA, the Maryland Department of Health and
Human Services (MDHHS) started a limited pilot program with 1,000 employers who were to report new
hires. The pilot program was stopped after a brief period because it was not working and the PRWORA
new hire reporting requirements would take effect in the near future. However, at the time of our audit, a
State Directory of New Hires was not in place. In the future, though a time frame was not provided, the
Child Support agency in the MDHHS will be maintaining the directory. They intend to comply with the
PRWORA new hire reporting requirements. In addition, they will ask employers to report the date of
employment.

New hire expectations - The SESA, which is in the Maryland Department of Labor, Licensing and
Regulations plans to use the new hire data in the future for UI benefit overpayment detection. However, they
are in the early stages of determining how new hire detection procedures will be carried out.




                                                     71
                  Appendix 2




AGENCY COMMENTS




      72
73
